<html>
<title> - AMERICA IN SPACE: FUTURE VISIONS, CURRENT ISSUES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                           AMERICA IN SPACE:
                     FUTURE VISIONS, CURRENT ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 13, 2019
                               __________

                            Serial No. 116-7
                               __________

 
 Printed for the use of the Committee on Science, Space, and Technology
 
 
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
       Available via the World Wide Web: http://science.house.gov
       
       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-584PDF                  WASHINGTON : 2019    





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                         
                         
                         
                         
                         C  O  N  T  E  N  T  S

                             March 13, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................     9

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Ellen Stofan, John and Adrienne Mars Director, Smithsonian 
  National Air and Space Museum; Former NASA Chief Scientist
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Peggy A. Whitson, Technical Consultant; Former Astronaut
    Oral Statement...............................................    20
    Written Statement............................................    22

Mr. Frank Rose, Senior Fellow, Security and Strategy, The 
  Brookings Institution; Former Assistant Secretary of State
    Oral Statement...............................................    28
    Written Statement............................................    30

Discussion.......................................................    44

             Appendix I: Answers to Post-Hearing Questions

Dr. Ellen Stofan, John and Adrienne Mars Director, Smithsonian 
  National Air and Space Museum; Former NASA Chief Scientist.....    78

Dr. Peggy A. Whitson, Technical Consultant; Former Astronaut.....    83

Mr. Frank Rose, Senior Fellow, Security and Strategy, The 
  Brookings Institution; Former Assistant Secretary of State.....    87

            Appendix II: Additional Material for the Record

Document submitted by Representative Brian Babin, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    94

 
                           AMERICA IN SPACE:
                    FUTURE VISIONS, CURRENT ISSUES

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10 a.m., in room 
2318 of the Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. Good morning. The hearing will come to 
order, and, without objection, the Chair is authorized to 
declare recess at any time. Let me welcome our witnesses this 
morning, and welcome all of you to the hearing on ``America in 
Space: Future Visions, Current Issues.''
    I have often said that this Committee is about the future, 
and I commend you to the words on the wall behind me, ``For I 
dipped into the future, far as human eyes could see, saw the 
world and all the wonder would be.'' I cite them, because--like 
outer space, captured childlike wonder and hope for the future 
that are shared by young and old. This morning's hearing, 
``America in Space: Future Visions, Current Issues,'' allows us 
to contemplate the visions, the wonder, and the possibilities 
of our Nation's future in civil space. And I hope we don't lose 
touch with that sense of wonder as we look ahead.
    This year we will celebrate the 50th anniversary of the 
Apollo moon landing. It was a monumental event in human 
history. Our astronauts have continuously occupied the Space 
Station in low Earth orbit for almost 20 years, and carried out 
research there while learning to live and work in space. Our 
scientific spacecraft have visited every planet in the solar 
system, and they continuously monitor our own planet's health. 
Our commercial space sector is growing, offering innovative 
capabilities and potential new services.
    What will our future in space look like in 10, 20, or 30 
years out? Where are we going to be with human exploration in 
2050? What would be the discovery of life beyond Earth mean for 
humanity here on Earth? What will the roles and relationships 
of government and commercial space actors be? What will our 
response to the interesting--increasing numbers and 
capabilities of other nations in space be?
    Multiple studies and commissions have wrestled with these 
and other questions. Today we are fortunate to have renowned 
leaders in space science, human exploration, and international 
security to share with us their perspectives. I look forward to 
hearing their testimonies. I know they will help inform us of 
our future oversight and legislative activities in the 116th 
Congress.
    A few days ago the Administration released its Fiscal Year 
2020 budget proposal. Relative to the Fiscal Year of 2019 
enacted appropriations, NASA's (National Aeronautics and Space 
Administration) budget would be cut, and it would not keep pace 
with inflation in the outyears. I will have more to say about 
the budget in the future hearings, but for now I will just note 
that I'm not sure how much vision fits into a budget that 
shrinks in real terms each year. If we want America to lead 
with a visionary and effective space program, we must be 
willing to commit the resources and funding stability to 
achieve that.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome. I especially want to welcome our 
distinguished witnesses.
    I have often said that this Committee is about the future, 
and I commend to you the words on the wall behind me: ``For I 
dipped into the future, far as human eyes could see. Saw the 
world and all the wonder that would be.''
    I cite them because they, like outer space, capture the 
child-like wonder and hope for the future that are shared by 
young and old.
    This morning's hearing, ``America in Space: Future Visions, 
Current Issues'' allows us to contemplate the visions, the 
wonder, and the possibilities for our nation's future in civil 
space.
    And I hope we don't lose touch with that sense of wonder as 
we look ahead.
    This year we will celebrate the 50th anniversary of the 
Apollo moon landing. It was a monumental event in human 
history.
    Our astronauts have continuously occupied the space station 
in low Earth orbit for almost 20 years and carried out research 
there, while learning to live and work in space.
    Our scientific spacecraft have visited every planet in the 
solar system, and they continuously monitor our own planet's 
health.
    Our commercial space sector is growing, offering innovative 
capabilities and potential new services.
    What will our future in space look like 10, 20, or 30 years 
out?
    Where are we going to be with human exploration in 2050?
    What would the discovery of life beyond Earth mean for 
humanity here on Earth?
    What will the roles and relationships of government and 
commercial space actors be?
    What will our response to the increasing number and 
capabilities of other nations in space be?
    Multiple studies and commissions have wrestled with these 
and other questions. Today we're fortunate to have renowned 
leaders in space science, human exploration, and international 
security to share with us their perspectives. I look forward to 
hearing their testimonies. I know they will help inform our 
future oversight and legislative activities in the 116th 
Congress.
    A few days ago the Administration released its Fiscal Year 
2020 budget proposal. Relative to the Fiscal Year 2019 enacted 
appropriation, NASA's budget would be cut, and it would not 
keep pace with inflation in the outyears. I will have more to 
say about the budget in future hearings, but for now, I will 
just note that I'm not sure how much vision fits into a budget 
that shrinks in real terms each year.
    If we want America to lead with a visionary and effective 
space program, we must be willing to commit the resources and 
funding stability to achieve it.
    Thank you, and I yield back.

    Chairwoman Johnson. I thank you, and at this time I would 
recognize our Ranking Member, Mr. Lucas, for his opening 
statement.
    Mr. Lucas. Thank you, Madam Chair, and welcome to the first 
space hearing of the 116th Congress. And I'd like to welcome 
back Dr. Babin, the Ranking Member of the Space Subcommittee, 
and congratulate Representative Kendra Horn, the incoming 
Chairwoman of the Space Subcommittee. As a fellow Oklahoman, I 
look forward to working with you and Chairwoman Johnson.
    We have a lot of work to do. These are exciting times for 
the Nation's space enterprise. The investments of the past 2 
decades are now coming to fruition. The commercial cargo 
program continues to deliver valuable supplies to the ISS 
(International Space Station). The commercial crew program took 
an important step just last week with SpaceX's successful 
return. We look forward to Boeing's uncrewed mission in the 
coming weeks, and crewed missions later this year. We're also 
in the final stages of developing the Space Launch System 
(SLS), and Orion crew vehicle that will allow NASA to venture 
farther into space than ever before.
    We're in the early stages of developing technologies 
necessary to return to the moon, as a stepping stone to Mars 
and beyond. Our Earth observation and astronomical 
observatories continue to provide world class science. Our 
planetary probes and rovers continue to explore the solar 
system. NASA is also pushing the boundaries of aeronautic 
research to keep our competitive edge internationally.
    Even with all these promising efforts, we also face 
significant challenges. Schedule delays, cost overruns, and 
technical errors not only harm individual programs, but also 
impact the agency as a whole. Delays to the commercial crew 
program have already forced NASA to purchase additional seats 
from Russia. Delays to the Space Launch System and Orion crew 
vehicle are also having impacts. NASA's recent budget request 
proposes to launch the Deep Space Gateway and the Europa 
Clipper mission on commercial launch vehicles for the first 
time. Getting SLS and Orion on track for exploration mission 
one and two is critical to the long-term viability of these 
programs, as they are the systems that will push us farther 
into the cosmos.
    Unfortunately, challenges are not unique to human 
exploration. The James Webb Space Telescope was originally 
planned to cost between $1 and $3.5 billion, and launch a 
decade ago, but now stands to cost roughly $10 billion, and 
might launch in a couple of years. James Webb is a once-in-a-
generation observatory that will reinforce American leadership 
in space science for decades to come. The delays and overruns 
will also have impact on NASA for just as long. Other 
observatories, such as WFIRST (Wide Field Infrared Survey 
Telescope), important grant funding, and missions outside of 
the field of astronomy and astrophysics, all end up paying that 
bill.
    Outside of civil space issues, we must also be wary of 
implementing overly burdensome regulations that push nascent 
space industries overseas. Companies have choices on where to 
incorporate, manufacture, and operate their space businesses. 
If we fail to create a competitive environment here in the 
U.S., and instead implement draconian regulations on an 
industry in its infancy, we stand to lose the competitive edge 
we now possess. Top down space traffic management based on 
incomplete data, stifling regulations on every activity in 
space, would be a recipe for disaster.
    I hope this Committee will continue to be a leader in 
proposing creative solutions that enable, rather than stifle, 
the commercial sector moving forward. But the biggest challenge 
facing NASA is consistency of purpose. The National Academies 
called for consistency of purpose in their 2014 report, and 
more recently the Aerospace Safety Advisory Panel went further, 
stating, ``The lack of consistent commitment negatively impacts 
cost, schedule, performance, workforce morale, process 
discipline, and most importantly, safety.''
    Congress has been successful in maintaining a consistency 
of purpose across Administrations, but the task requires 
continued diligence. In the 2005, 2008, 2010, and 2017 
Authorization Acts, Congress stayed consistent, despite 
Administrative, I should say numerous Administrative attempts, 
to veer off course. NASA should build the systems necessary to 
explore the moon, Mars, and beyond in a stepping stone approach 
that maintains the multi-mission nature of the agency. I trust 
the Committee's leadership will maintain this direction, and I 
look forward to working with them on that goal.
    And I yield back, Madam Chairman.
    [The prepared statement of Mr. Lucas follows:]

    Welcome to the first space hearing of the 116th Congress. 
I'd like to welcome back Dr. Babin, the Ranking Member on the 
Space Subcommittee and congratulate Rep. Kendra Horn, the 
incoming Chairwoman of the Space Subcommittee. As a fellow 
Oklahoman, I look forward to working with you and Chairwoman 
Johnson.
    We have a lot of work to do. These are exciting times for 
the nation's space enterprise. The investments of the past two 
decades are now coming to fruition.
    <bullet> LThe Commercial Cargo program continues to deliver 
valuable supplies to the ISS.
    <bullet> LThe Commercial Crew program took an important 
step just last week with SpaceX's successful return. We look 
forward to Boeing's uncrewed mission in the coming weeks, and 
crewed missions later this year.
    <bullet> LWe are also in the final stages of developing the 
Space Launch System and Orion Crew Vehicle that will allow NASA 
to venture farther into space than ever before.
    <bullet> LWe are in the early stages of developing the 
technologies necessary to return to the Moon as a stepping-
stone to Mars and beyond.
    <bullet> LOur Earth observation and astronomical 
observatories continue to provide world-class science, and our 
planetary probes and rovers continue to explore the solar 
system.
    <bullet> LNASA is also pushing the boundaries of aeronautic 
research to keep our competitive edge internationally.
    Even with all these promising efforts, we also face 
significant challenges. Schedule delays, cost over-runs, and 
technical errors not only harm individual programs, but also 
impact the agency as a whole. Delays to the Commercial Crew 
program have already forced NASA to purchase additional seats 
from Russia. Delays to the Space Launch System and Orion Crew 
vehicle are also having impacts. NASA's recent budget request 
proposes to launch the Deep Space Gateway and the Europa 
Clipper mission on commercial launch vehicles for the first 
time. Getting SLS and Orion on track for Exploration Mission 1 
and 2 is critical to the long-term viability of these programs, 
as they are the systems that will push us further into the 
cosmos.
    Unfortunately, challenges are not unique to human 
exploration. The James Webb Space Telescope was originally 
planned to cost between $1 and 3.5 billion and launch a decade 
ago, but now stands to cost roughly $10 billion and might 
launch in a couple of years. JWST is a once-in-a-generation 
observatory that will reinforce American leadership in space 
science for decades to come. But delays and over-runs will also 
have impacts on NASA for just as long. Other observatories like 
WFIRST, important grant funding, and missions outside of the 
field of astronomy and astrophysics, all end up paying that 
bill.
    Outside of civil space issues, we must also be wary of 
implementing overly burdensome regulations that push the 
nascent space industry overseas. Companies have choices on 
where to incorporate, manufacture, and operate their space 
businesses. If we fail to create a competitive environment here 
in the U.S., and instead implement draconian regulations on an 
industry in its infancy, we stand to lose the competitive edge 
we now possess. Top-down space traffic management based on 
incomplete data, and stifling regulations on every activity in 
space, would be a recipe for disaster. I hope this Committee 
will continue to be a leader in proposing creative solutions 
that enable, rather than stifle, the commercial sector going 
forward.
    But the biggest challenge facing NASA is constancy of 
purpose. The National Academies called for constancy of purpose 
in their 2014 report, and more recently, the Aerospace Safety 
Advisory Panel went further stating. ``[t]he lack of consistent 
commitment negatively impacts cost, schedule, performance, 
workforce morale, process discipline, and-most importantly-
safety.''
    Congress has been successful in maintaining a constancy of 
purpose across Administrations, but the task requires continued 
diligence. In the 2005, 2008, 2010, and 2017 Authorization 
Acts, Congress stayed constant despite numerous Administrations 
attempts to veer off course. NASA should build the systems 
necessary to explore the Moon, Mars, and beyond in a stepping 
stone approach that maintains the multi-mission nature of the 
agency. I trust the Committee's leadership will maintain that 
direction, and I look forward to working with them on that 
goal.

    Chairwoman Johnson. Thank you, Mr. Lucas. Let me announce 
that if there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Now we'll introduce our witnesses.
    Our first witness, Dr. Ellen Stofan, the John and Adrienne 
Mars Director of the Smithsonian National Air and Space Museum. 
Prior to her current position, Dr. Stofan served as a NASA 
Chief Scientist, where she advised NASA administrator on 
science programs and strategic planning. She's also held senior 
scientist positions at NASA's Jet Propulsion Laboratory, 
including work on missions exploring Venus, Earth, Mars, and 
Saturn. She served as chief scientist for the New Millennium 
program and principal investigator on the proposed Titan Mare 
Explorer. Dr. Stofan holds a master's degree and doctorate 
degrees in geological scientist--sciences from Brown 
University, and a bachelor's degree from the College of William 
and Mary.
    Our second witness, Dr. Peggy A. Whitson, former NASA 
astronaut, and currently a space and science consultant and 
Adjunct Assistant Professor at Rice University. Over her 
career, she has accrued a cumulative time of over 665 days in 
space, the most of any U.S. astronaut, most of any woman 
worldwide, and 8th most all time. Since her first space flight 
in 2002, Dr. Whitson has completed three separate long-duration 
missions to the International Space Station. She served as 
commander twice, and was the first female commander. She has 
also conducted 10 extra-vehicular activities. Dr. Whitson 
previously served in other NASA positions, including as the 
Chief of NASA's Astronaut Office, where she was both the first 
female, and the first non-military leader to serve in that 
position. She received her bachelor of science in biology and 
chemistry from Iowa Wesleyan College, and a doctorate in 
biochemistry from Rice University.
    Our third and final witness is Mr. Frank A. Rose, a Senior 
Fellow for Security and Strategy in the Foreign Policy Program 
at The Brookings Institution. His research focuses on nuclear 
strategy and deterrence, arms control, strategic stability, 
missile defense, outer space security, and emerging security 
challenges. Prior to joining Brookings, he served as Principal 
Director and Chief of Government Relations at The Aerospace 
Corporation, a federally funded research and development center 
focused on national security space. Mr. Rose previously served 
as Assistant Secretary of State for Arms Control, Verification, 
and Compliance during the Obama Administration. He also held 
national security staff positions in the U.S. House of 
Representatives. Mr. Rose received his bachelor's degree in 
history from American University, and a master's degree in war 
studies from King's College at the University of London.
    Our witnesses should know that each of you will have 5 
minutes of spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all have--when 
you have completed your spoken testimony, we will begin 
questions. Each Member will have 5 minutes question--to 
question the panel. And we now will start with Dr. Stofan.

                 TESTIMONY OF DR. ELLEN STOFAN,

                JOHN AND ADRIENNE MARS DIRECTOR,

           SMITHSONIAN NATIONAL AIR AND SPACE MUSEUM,

                AND FORMER NASA CHIEF SCIENTIST

    Dr. Stofan. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to 
discuss the future of space science and exploration. As a 
former Chief Scientist of NASA, and the current John and 
Adrienne Mars Director of the Smithsonian's National Air and 
Space Museum, there's no topic I find as exciting or as 
fundamental to scientific discovery, technological development, 
and economic growth as this one.
    The study of space begins and ends here on Earth. The 
improvement of life on Earth has been the impetus for, and the 
guiding principle behind, all space exploration. Why do we 
explore? What do we hope to gain? What waits for us on the 
moon, Mars, and beyond? The answer was, is, and always will be 
found here at home.
    Fifty years after we first set foot on the moon, we are 
entering a new space age, and it is poised to be even more 
transformational than the first. The commercial, scientific, 
and security development of the space around Earth has been a 
priority for decades, and in the next 10 years we will become 
ever more dependent on our orbital infrastructure to support 
our way of life here on the ground.
    Consider the stunning social, economic, and security 
implications of the GPS system, now entering its third decade 
as a public asset. Now apply that scale of transformational 
change to critical sectors, like energy and agriculture. Just 
this past week, reports on the impact of saltwater intrusion on 
coastal farmland, and the devastating effect it has on farmers 
and their families, illustrated the imminent danger of climate 
change.
    As sea levels rise, and weather events become more extreme, 
agricultural activities will require sophisticated data from 
Earth observing satellites, and that is just one of the many 
sectors that will require space-based intelligence to make 
essential decisions to keep our economy moving forward as we 
work to mitigate the effects of climate change. Understanding 
climate change on Earth is also informed by our studies of 
planets across the solar system. Comparative studies of 
planets, from greenhouse gases on Venus, to interior quakes on 
Mars, or volcanoes on the icy moons of the outer solar system, 
moves our understanding of Earth's complex environments 
forward.
    But in the next 20 years, our study of worlds beyond our 
own will yield a new discovery that will tell us even more 
about our home in the universe. We will discover life elsewhere 
in space. It will likely begin with fossil evidence on Mars, 
then simple organisms under the ice on Europa and/or Enceladus. 
The hydrocarbon seas on Titan could provide proof of life so 
alien that it redefines our understanding of how it evolved 
here on Earth, and the possibilities for life in exotic 
environments beyond our own solar system.
    Our solar system is the stepping stone for us to understand 
the possibilities for life elsewhere in the universe, as our 
advanced telescopes continue to characterize worlds around 
other suns. The discovery of extraterrestrial life will be a 
defining moment in the 21st century, just as the moon landing 
was in the 20th. But to get there we must invest in missions 
like the Europa Clipper, Mars sample return, the Webb 
Telescope, and in human exploration beyond low Earth orbit. We 
know where to look, and we know how to look. We have the 
technology to determine if life has evolved elsewhere in the 
solar system, and can easily do so within the next 2 decades.
    In the next 20 to 30 years I hope that humans will have 
achieved a flourishing presence in the solar system, including 
a permanent presence on the moon, and a scientific outpost on 
Mars. Thanks to NASA's ongoing voyages to the Red Planet, we 
now know more about Mars than any other planet in the solar 
system, save Earth, and learn more almost daily. Mars remains 
the horizon goal, according to the National Academy of 
Sciences, and I believe we can see the path to that horizon 
more clearly than ever. The question before us is, are we on 
the right path to realize this bright future? I'd say the 
answer is a tentative yes, with opportunities and challenges.
    Getting there depends on consistent investment focused 
where it brings the biggest and most significant return. That 
includes finding the right balance with the private sector so 
NASA can do what it does best, big-picture exploration, 
cutting-edge, academy-level science balanced across 
astrophysics, heliophysics, Earth science, and planetary 
science, as prioritized in the Decadal surveys, and 
aeronautical innovation. It also means inspiring and investing 
in a diverse, enabled workforce to bring all the creativity and 
talent of our Nation to the task. This is a priority of the 
National Air and Space Museum.
    As we celebrate the 50th anniversary of Apollo at the 
museum, we have explored what it took to meet such an audacious 
challenge as landing on the moon just 8-1/2 years after a young 
President set the goal. It took a national commitment, steady 
and reliable funding, and an understanding with giant leaps 
comes risk, but that risk is what leads to great rewards, with 
investments in technologies and scientific discoveries than can 
transform our economy, and keep us at the forefront of the 
world. The challenges and opportunities of this moment, like 
those 50 years ago, can lead to amazing, enduring achievements 
for the benefit of all humankind.
    I look forward to your questions.
    [The prepared statement of Dr. Stofan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Whitson.

               TESTIMONY OF DR. PEGGY A. WHITSON,

           TECHNICAL CONSULTANT AND FORMER ASTRONAUT

    Dr. Whitson. Thank you, Chairwoman, and Members of the 
Subcommittee, for inviting me to give my opinions about space. 
The ultimate goal must be the establishment of an undeniable 
United States leadership in the exploration and privately owned 
development of space. This will reap the direct benefits of 
technological advancements and economic growth, while 
bolstering national security. We are well past the flag-
planting stage, and it's time to make our ventures into space 
both commonplace and sustainable. Twice I've had the honor of 
serving as Commander of the International Space Station, living 
and working there for 665 days. I can't stress enough the 
importance of continued expansion of our space presence. It's 
no longer a matter of national pride. It's our national 
security, our future, and possibly even our very survival.
    I recommend a 10-year plan for a sustainable exploration 
into space that includes the following. Continued technology 
development and testing onboard the ISS, prioritizing expertise 
beneficial for missions to the moon and Mars while we are 
establishing our presence there. The creation of a deep space 
infrastructure, such as Lunar Gateway, an orbiting station 
close to the moon that would facilitate robotic and human 
surface operations. Further robotic exploration of Mars to 
better define viable locations for human missions. And, 
finally, the development of technologies to utilize local 
resources on the lunar and Mars surfaces. Water, for example, 
is a source of oxygen, and fuel, and minerals, and other 
elements. We can't really be sure what we'll find. That's part 
of the reason we want to go. So this--and inherent in all of 
this is our continued expansion of international and commercial 
partnerships.
    The ISS in low Earth orbit is an ideal testbed for 
innovative and redesigned technologies that are lighter-weight, 
smaller, and more reliable. It's my belief that commercial, 
private-sector expansion will open up new markets, establish 
future platforms for research and technology, and the 
government-led Lunar Gateway would allow us to test and assess 
such things as solar electric propulsion, lunar robotic 
exploration, and early stages of human habitation on the moon's 
surface, while taking advantage of the local resources.
    Government-supported expansion to the moon would also serve 
to stoke the private sector's appetite for further 
commercialization. For example, providing cargo carriers and 
lunar landers to the Gateway, and the moon, and beyond, 
developing and testing other capabilities, such as excavation, 
drilling, atmosphere collection, in addition to manufacturing 
and construction. In other words, like Robinson Crusoe, we need 
to become reasonably self-sufficient up there for any plan to 
be successful, and, just as importantly, sustainable.
    The 20-year and 30-year plans would focus on Mars, and 
include continued testing for deep space and surface 
technologies aboard the Gateway and lunar surface, 
establishment of a Martian infrastructure for continued robotic 
missions and human surface operations, and utilization of 
technologies that take advantage of resources on Mars. By 2040 
or 50, I envision surface colonization and research being 
conducted on Mars. In other words, I can easily imagine people 
living there, and one of the astounding benefits is that people 
on Earth will benefit from the technological developments 
required to go where no one has gone before, and to do so in a 
way that unites humanity in goals bigger than ourselves as 
individuals, cultures, or countries.
    To lead in space, the United States cannot isolate 
ourselves. The U.S. Government-led exploration of the cosmos 
necessarily must include international collaborations. It's all 
these partnerships that have enabled the International Space 
Station to be so successful. No matter the winds of politics, 
intergovernmental ties have sustained a 20-year and counting 
mission. Astronauts from around the world have lived and worked 
together successfully, yes, more alike than different. Also 
critical in our approach, we need to include even more avenues 
for the participation of our commercial sector, taking 
advantage of business-savvy people and flexible and innovative 
approaches.
    The biggest challenge I see in future space exploration is 
enduring stability and consistency. Coming up with a plan, and 
sticking to it, as we expand our human presence deeper into 
space, while building the infrastructure to make it 
sustainable, will lead to greater successes, maximizing 
taxpayer dollars. Congressionally developed mechanisms to 
protect the long-range mission with minimal setbacks, and no 
gaps between election cycles, would be a huge step in assuring 
a continued U.S. leadership in space. Thank you.
    [The prepared statement of Dr. Whitson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you, Dr. Whitson. Mr. Rose.

                    STATEMENT OF FRANK ROSE,

             SENIOR FELLOW, SECURITY AND STRATEGY,

                 THE BROOKINGS INSTITUTION, AND

              FORMER ASSISTANT SECRETARY OF STATE

    Mr. Rose. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, it is an honor to appear before you 
to discuss America's future in space. Let me begin by stating 
that, although I am currently a Senior Fellow at the Brookings 
Institution, I am presenting this testimony in my personal 
capacity.
    As Members of the Committee can see from my biography, the 
vast majority of my work has been devoted to the national 
security and diplomatic aspects of outer space, not civil or 
commercial space. That said, I have increasingly come to the 
conclusion that national security, civil, and commercial space 
have become more intertwined, thus requiring us to address 
outer space in a comprehensive manner. Indeed, access to outer 
space is critical to almost everything we do here on Earth.
    However, today's outer space environment is evolving 
rapidly, presenting the United States and other nations with a 
number of key challenges to the sustainability, safety, 
stability, and security of the outer space environment. From my 
perspective, some of the most pressing challenges include the 
continued growth of orbital debris in various Earth orbits, 
which represents an ever-increasing threat to both human and 
robotic space flight, the emergence of mega-constellations of 
satellites, the deployment of anti-satellite (ASAT) weapons by 
potential adversaries, and the rise of China as an increasingly 
prominent outer space actor. Indeed, the space environment has 
become congested, competitive, and contested. American 
leadership is key to addressing these growing challenges in 
outer space, but given the sheer scope of the challenge we 
face, this is not something that the United States can address 
alone. It will require active collaboration and cooperation 
from our international partners.
    Let me now provide the Committee with some specific 
recommendations for addressing these challenges. On orbital 
debris, we need to ensure a smooth transition of the space 
traffic management mission from DOD (Department of Defense) to 
a civilian agency. This will require Congress to pass 
legislation authorizing the transfer from DOD, or--to Commerce. 
In my view, passing this legislation should be one of the 
Committee's top priorities. The United States should also 
continue to advance international norms in best practices that 
seek to reduce the growth of orbital debris, and encourage 
greater cooperation on space situational awareness (SSA).
    With regards to the deployment of mega-constellations of 
satellites, we must ensure that the U.S. Government is 
organized effectively to manage the rise of these new 
constellations, and that these constellations are operated in a 
way that maintains the long-term sustainability of the space 
environment, especially in low Earth orbit.
    The deployment and potential use of anti-satellite weapons 
will have a direct impact on civil and commercial space 
systems, therefore, it is critical that the Members of this 
Committee have a comprehensive understanding of the issue. 
Thus, I recommend the Committee receive the appropriate 
briefings from the U.S. intelligence community on the evolving 
anti-satellite threat.
    As previously noted, China has emerged as a major 
international space power, and the United States needs a 
strategy for managing China's rise in outer space. Therefore, I 
recommend the Committee direct the Executive Branch to develop 
a comprehensive strategy for engaging China on space issues. I 
also recommend continuing the U.S.-China civil space dialog, 
and re-establishing the U.S.-China space security talks, which 
were last held in 2016, to ensure we have channels to discuss 
both areas of potential cooperation, but also places to express 
our concerns.
    Thank you very much for your attention, and I look forward 
to your questions.
    [The prepared statement of Mr. Rose follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much, Mr. Rose. At this 
point we will begin our first round of questions, and I 
recognize myself for 5 minutes.
    Mr. Rose, I'd like to ask a clarifying question about your 
written statement. You mentioned that the space traffic 
management mission would be better performed by a civil agency. 
You also referred to the Department of Commerce. Is that the 
civil agency you believe would be best suited for that role, 
and is this something Congress should evaluate? And I think you 
just said that.
    Mr. Rose. Thank you for that question, Madam Chairman--
Madam Chairwoman. What I would say is this. I fully support 
transferring the mission from DOD to a civilian agency. We 
looked at this at the end of the Obama Administration. The 
general consensus was that this mission should go to the FAA 
(Federal Aviation Administration), and, honestly, I was a 
little bit surprised that the Administration decided to move it 
to Commerce. But I think the fundamental issue is we need to 
get it right. So I don't have a hard preference one way or the 
other, but you should ensure, from my perspective, that we do 
it right, because space situational awareness and space traffic 
management is foundational to everything else we do in outer 
space.
    Chairwoman Johnson. Thank you. Now, of course, in the past 
FAA has been the major aviation agency. How does Commerce fit 
into that?
    Mr. Rose. Well, as you know, Commerce does a lot of the 
licensing, and NOAA (National Oceanic and Atmospheric 
Administration) runs probably one of the largest satellite 
constellations in the world. But you are absolutely right, 
there is the--I believe the Office of Commercial Space 
Transportation that has a long history of working space issues. 
And, as I mentioned, at the end of the Obama Administration, we 
had been looking to the FAA to take the lead on this space 
traffic management mission.
    Chairwoman Johnson. Thank you very much. Doctors Whitson 
and Stofan, as we think about visions for America in space, I'd 
like to note that the last enacted NASA authorization set Mars 
as a horizon goal for humans in space. The Act also directed 
NASA to prepare a human exploration roadmap to get us to Mars. 
Your written statement noted the importance of having a 10-, 
20-, or 30-year plan for our space exploration program. Do such 
plans exist, and have the priority tasks that need to take 
place in the International Space Station, and on the moon, been 
identified in a way that focuses on the horizon goal in sending 
humans to Mars? Dr. Stofan, you can.
    Dr. Stofan. When I was at NASA, we were working on various 
architectures to get humans to Mars by--to Mars orbit by 2033, 
which I've spoken to this Committee a few years ago, so, yes, 
NASA has been working on architectures. The issue becomes, as 
the Academy detailed in their Pathways report, there are 
multiple pathways you can take to get to Mars, and so, in my 
opinion, you have to use the controlling factor of what is a 
reasonable budget that NASA would have, what are the 
technologies that you need that are always building upon each 
other to get you to the end goal, for example, the Gateway, 
which allows us to do a lot of the research on life support 
systems and human health that we need to do in deep space that 
will be an extension of what we have been able to accomplish, 
and will continue to accomplish on the International Space 
Station.
    But I remain, you know, as the Academy said, that Mars is 
the horizon goal. We need humans on the surface of Mars, 
breaking open a lot of rocks to find that evidence of past life 
on Mars. And so, as we develop this architecture, as NASA 
develops it over the next 10 to 20 years, I think it's very 
critical to remain focused on what are the critical 
technologies to invest in that get humans to Mars, because that 
is the horizon goal. The more paths you go down, the more 
technologies that are applicable to multiple destinations, the 
more money you're going to spend, and the further and further 
Mars will recede into the distance.
    Chairwoman Johnson. Thank you. Dr. Whitson?
    Dr. Whitson. And I'd like to pile on and add that, in 
addition, that consistency of purpose and path I think is a 
good one. I think if we have the appropriate commercial 
interactions with commercial partners, we can use that path 
as--to bring in new and innovative ideas, and maybe help us, or 
assist, and speed us in that planned path to get us to first 
moon, and then Mars. So I think it's all consistent. I think 
NASA does have a plan to get there, and--so I'm really excited 
about our future now. But I do honestly believe it's going to 
need to be infused with new and innovative ideas that maybe 
aren't as easy to accomplish strictly within a government path.
    Chairwoman Johnson. Thank you very much. My time has 
expired. Mr. Lucas?
    Mr. Lucas. Thank you, Madam Chair. Mr. Rose, let's go back 
to space situational awareness for a moment. Your testimony 
recommends the Committee should make ensuring an effective 
transition to a space traffic management mission to the 
Department of Commerce one of its top oversight priorities for 
the next year. The Department of Defense does not conduct, of 
course, space traffic management, and instead provides a space 
situational awareness. And I won't quote the Federal statute 
that's related to, but in this construct, DOD simply provides 
that data that the private sector can use to inform its 
operations about coordinating with other space sectors, and 
consider the other databases offered by commercial providers, 
international providers.
    Last year the Committee passed legislation accomplishing 
that goal, laid out in your testimony, ironically. You made it 
clear that you believe Congress should move quickly on this. 
Can you visit with us for a moment about how we ensure that 
such a transfer of SSA responsibility from DOC to the 
Department of Commerce is done without creating new levels of 
bureaucracy or regulatory burden that just stifle the process 
for the industries?
    Mr. Rose. Absolutely, sir. I think, you know, we need to 
make sure that we are consulting very closely with the 
commercial sector as we move forward. On, for example, many of 
the norms that I worked on at the State Department, we worked 
very closely with commercial industry, and they've had a lot of 
input, so my strong recommendation to the Committee is, as you 
develop legislation, ensuring that our commercial industry has 
a say, and has input, will be key.
    Mr. Lucas. Dr. Stofan, flagship missions like James Webb, 
Hubble, Mars Rover, Europa Clipper are awe-inspiring, and 
they're costly, and face delays and technical challenges. And 
these issues, as we've discussed, impact other missions at 
NASA, require new missions to be deferred, research money to be 
scaled back. It just re-shuffles the whole deck. And we've 
heard hours of testimony at this Committee about what went 
wrong on a variety of these programs, and how we should prevent 
that in the future. I guess my question to you is, should 
Congress accept the concept that space is hard, and learn to 
live with the overruns or delays, or is there something you 
would recommend to us to help prevent the overruns, or at least 
mitigate their impact on the rest of the NASA agenda?
    Dr. Stofan. You know, obviously this is an issue that's 
frustrating to everybody, certainly in the scientific 
community, and obviously to all of you, but I think the reward 
that comes from flagship missions is unquestioned. When you 
look at Hubble, it has rewritten textbooks. It's changed our 
understanding of the universe. And so, while certainly Hubble 
also had cost overruns that impacted the program over its 26-
year history, I think we've gotten a little bit more than our 
money's worth out of Hubble, and I strongly believe we will 
feel the same way about James Webb 10 years from now, when it 
is giving us planets around other stars, telling us their 
atmospheric composition, helping us understand where WFIRST and 
ground-based telescopes, like the giant Magellan Telescope, can 
focus their next research.
    You know, these flagship missions return really important 
science. I think it's on all of us, and to certainly keep going 
back to the Academy, to say, are we actually implementing the 
lessons learned from previous cost overruns? How do we keep 
those missions in the box, and how do we sometimes make hard 
decisions about de-scoping those missions in order to keep them 
closer to the original box that they were put in? But this goes 
to also an initial problem of how do you cost missions up front 
so that we bring reasonable cost estimates to you, rather than 
maybe somewhat optimistic cost estimates that just lead us to 
problems down the road? So there's multiple issues there.
    I think the lessons learned, and implementing those lessons 
learned, are really critical, but I don't think we should step 
away from flagship quality science. That's the science that 
changes the world.
    Mr. Lucas. Fair point. Dr. Whitson, speaking of the big, 
bold, and the profound, the current budget requests the funding 
of a 75 metric ton variant of the SLS. Congress directed the 
agency to develop 130 metric ton vehicle in order to do deep 
space exploration. Explain to the Committee, if you would, why 
is a 130 metric ton vehicle necessary? We're getting back to 
the elementary stuff here, but, why----
    Dr. Whitson. Yes. And----
    Mr. Lucas [continuing]. Do we need the bigger lifter?
    Dr. Whitson. And I actually think that probably we should 
take that question for the record. I think NASA would have a 
much more articulate answer than I would on that one.
    Mr. Lucas. OK. Well, let's go one more and see what you 
think on that. Should Congress fund the continued development 
of an enhanced upper stage to get to the Block 1B variant of 
the 105 metric tons, and eventually develop advanced boosters 
that will enable SLS to lift that 130 metric tons?
    Dr. Whitson. Again, I think that the rocket development and 
design is much better answered by someone more articulate on 
that than I am. I'm sorry.
    Mr. Lucas. Well, just from a layman's perspective, if we're 
going to go way out there, we have to throw big things out 
there, right?
    Dr. Whitson. Absolutely. We----
    Mr. Lucas. So if we're developing resources to throw 
smaller things, we're either going to have to send a lot more 
rockets----
    Dr. Whitson. Exactly.
    Mr. Lucas [continuing]. Package products, or we develop the 
bigger boosters to put the big piece up in one chunk. Fair 
statement?
    Dr. Whitson. That is absolutely correct.
    Mr. Lucas. And the perspective of the Committee is let's 
go, and go hard, it's been in the past, anyway, as opposed to 
piecemeal. I think I made my point.
    Dr. Whitson. Yes. And there's a lot of risk. With multiple 
missions, you take lots of risk. You pile your risk more into 
one vehicle with a bigger one, but I think there, you know, the 
chances of getting multiple launches is much harder when it--
when you're talking--trying to scale it back into a finite 
number of years.
    Mr. Lucas. Thank you, Doctor. Yield back, Madam Chair.
    Chairwoman Johnson. Thank you, Mr. Lucas. Ms. Horn.
    Ms. Horn. Thank you, Madam Chair, and thank you to all of 
our witnesses. I would like to start circling back on the 
debris issue with Mr. Rose, if we could. Looking at your 
testimony, and the fact that there are now more than 600,000 
pieces of orbital debris that we're contending with, can you 
speak just very briefly about how dire the situation is before 
right--we dive into--how to address it?
    Mr. Rose. It is not good, and it's getting worse every 
year. Now, we can track right now about 20,000 pieces of debris 
larger than 10 centimeters. As you mentioned, ma'am, there are 
probably about 600,000 that we cannot track, though that will 
improve this year with the space fence, but this is a serious 
problem that we need to address, because it is getting worse.
    Ms. Horn. Thank you. And, to follow on that, in the 
conversation and distinction between traffic management and 
situational awareness, I would like to hear you speak a little 
bit more about--my concern is losing capabilities in any sort 
of transition about--what would be needed to move from a 
situational awareness, and what's the benefit of transitioning 
out of a DOD, and what kind of resources would be required to 
effectively do that?
    Mr. Rose. Well, the benefit about transitioning out of DOD 
is this. DOD needs to be focused on the anti-satellite threat, 
but, as you rightly note, most, or--if not--yes, I would say 
most of our capability, from sensors to expertises there, 
though NASA and other organizations have it. The fundamental 
point we need to do is make sure we do this in a deliberate 
manner, and that the transition includes all the key players, 
whether it be from Commerce, NASA, DOD. So that's my kind of 
plea to the Committee, is use your oversight powers to make 
sure we're doing it the right way, because we can't afford to 
get this wrong.
    Ms. Horn. Thank you. That's part of my concern. I want to 
transition next to workforce issues. The budget that was just 
proposed, there are two things, there's the age of the NASA 
workforce, and then there's the pipeline. So, with respect to 
the age of the NASA workforce and the pipeline, I want to start 
with the STEM (science, technology, engineering, and 
mathematics) programs that the current budget proposes to cut. 
And, Dr. Stofan and Dr. Whitson, you both, in your testimony, 
have addressed that. So I wanted to ask you both briefly, what 
message does this send, and what impact does a cut to STEM 
programs have to the pipeline of the NASA workforce?
    Dr. Whitson. I really think it's important for us to be 
educating our young people, and giving them the motivation and 
the desire to be part of this technology development that we 
want to happen for our own country, and so I find it difficult 
to say that we shouldn't do any of it. I know that NASA, by 
inspiration alone, will continue that, but I do think there 
should be mechanisms that exist to definitely beef up our young 
group of future engineers and astronauts to support our future 
programs. Otherwise, we will be at a huge disadvantage compared 
to the other countries.
    Dr. Stofan. When I go out and talk to the aviation and 
aerospace industry, what I hear from them are huge concerns 
about future workforce. And when you have educational programs 
like those at NASA, like those that we have at the Smithsonian, 
that undergo rigorous evaluation--they're--these are programs 
that are shown to have benefit. They reach, you know, hundreds 
of thousands, if not millions, of kids around this country, and 
inspire them to go into STEM careers. They don't always end up 
at, you know, as NASA astronauts, but they may become civil 
engineers, or doctors, and go out and contribute.
    So I think these programs are critically important because 
we know it's a pipeline issue, especially for women, and all 
people of color, that reaching those kids, keeping them in the 
pipeline, is critically important.
    Ms. Horn. Thank you, Madam Chair. I have many more 
questions, but I'm running out of time, so thank you very much 
to all the witnesses. I turn the mic back over. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, ma'am. Dr. Stofan, in your discussion 
with Ranking Member Lucas, you made a couple of comments about 
the reward from flagship missions should override the 
disappointments, or something to that extent. Do you remember 
that? Is that fairly accurate?
    Dr. Stofan. Yes. Frankly, it's a really tough thing, so 
believe me, this is not an easy thing to say. When you look at 
the, you know, when you're going through the Curiosity 
overruns, as I did, or, you know, again, the Hubble overruns--I 
was at headquarters when we were working on Hubble--or on James 
Webb, trying to keep it in the box, you know, you don't want 
those overruns to occur. And I think, again, that diligence in 
this is extremely important, and staying on top of these 
missions, trying to keep them in the box, is something that we 
should try to do. I don't want to be, certainly, cavalier about 
it, but those missions change our views of the universe----
    Mr. Weber. Well, sure----
    Dr. Stofan [continuing]. And our solar system.
    Mr. Weber [continuing]. And I appreciated your comments on 
that, and I think you're on track. My question is, who is 
categorizing those, as you call them, flagship missions versus 
kind of the busts, if you will? Who categorizes that, who keeps 
track of those, what's the ratio, and how do we learn those 
lessons, and implement those lessons?
    Dr. Stofan. Well, I'll take that from a couple different 
points of view. Obviously, as you well know, it's the Decadal 
survey that's done by the Academy that prioritize. And 
certainly, for example, the Planetary Science Decadal, which 
I've been involved in the last two Planetary Science Decadals, 
the Decadals actually recommend, here are missions that we 
think should be priorities in the flagship class, so much 
larger missions, harder to implement. And then they also make 
recommendations on smaller-scale missions. And, for example, 
the last Planetary Decadal went into great detail about how 
they thought the tradeoff should be made if budgets were more 
constrained than previously thought, which that was great 
advice that came from the Academy to NASA on how to make those 
decisions.
    NASA itself goes through a very rigorous lessons learned 
process. For example, I was there when we were looking at the 
lessons learned from overruns from Curiosity.
    Mr. Weber. Let me interrupt, if I can. Is there a person 
that actually is in charge of tracking this?
    Dr. Stofan. I'd have to take that question for the record. 
That'd be a better question for NASA. I think it comes out of 
the Office of the Chief Engineer, but I'm not positive, so I 
should take that for the record.
    Mr. Weber. Right. Well, thank you for that because, you 
know, we want to be able to track that. The Ranking Member had 
some great questions about the size of the delivery platform, 
for example. Was that a flagship mission? Obviously it was. Was 
it a success? Obviously it was. But if we had gone bigger, you 
know, I'm from Texas, where bigger is better, and had we gone 
bigger, would it have been better, and why didn't we do that, 
and who assesses that, and gives us that assessment? Do we know 
that, or is that the same person--you're going to have to get 
back with us on who that is, what department that is?
    Dr. Stofan. Yes, obviously--and the Space Science 
Directorate at NASA is responsible for finally evaluating 
missions, the final design of missions, but they are reviewed 
externally within the agency.
    Mr. Weber. What does that cycle look like, in length of 
time? Does it take 1 year, 2 years? How quickly do we come to 
that conclusion?
    Dr. Stofan. Usually you go through a series--what are 
called key decision points, or KDPs. And so by the time, I 
think, you get to--I'm going to screw this up. It's KDP-B, I 
think, where the--or maybe KDP-C, where the price is finalized. 
So it's years of studies, of assessments, of external review 
boards that look at the costs and try to understand what the 
mission--how it's scoped. But, again, NASA can give you a much 
better answer.
    Mr. Weber. OK. And I appreciate that. So, in the last 
minute left, this is a question for all of you, and Dr.--Mr. 
Rose, I'll start with you, so you don't feel left out, and Dr. 
Whitson, hopefully get to you. What should our priorities and 
strategies be for the next 5 years and next 10 years in order 
to regain access to low Earth orbit and maintain the 
development of exploration systems? What should our priorities 
and strategies be? Mr. Rose?
    Mr. Rose. Addressing the orbital debris problem.
    Mr. Weber. I figured you would say that. OK.
    Dr. Whitson. OK. And I would say that we need to continue 
research that prioritized on ISS, but prioritized for moon 
missions. For instance, we need to do things like make the life 
support systems much more compact. Also, there's missions like 
the--the Mars 2020 is going to test the ability to take carbon 
dioxide from the Martian atmosphere and make it into oxygen, 
and that's great for breathing and fuel. And testing those 
types of capabilities are going to be the things that enable a 
sustainable future in space.
    Mr. Weber. All right. And I appreciate that, and, Madam 
Chair, I yield back with 2 seconds.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you, Chairwoman Johnson, and Ranking 
Member Lucas, and thank you to all of our witnesses. We've had 
many conversations in this Committee over the years about the 
role that NASA plays in sparking the imagination of the next 
generation of students, especially students to pursue careers 
in science and astronomy. I also know, as Member of the 
Education Committee, where I'm going back and forth this 
morning, talking about college affordability, which is directly 
related to the workforce issues we're talking about, that we 
need critical thinkers, and we need people who are inventive 
and entrepreneurial.
    So I am the co-Chair of the bipartisan STEAM Caucus with 
Representative Stefanik from New York, where we are identifying 
ways to integrate the arts and design into STEM learning to 
engage more students, but also to make sure that students are 
getting a well-rounded education. Former NASA astronaut Cady 
Coleman, who's also a musician, she did this great flute duet 
from the ISS with her flute duet partner on Earth, which I 
thought was pretty amazing, in 2011, I believe that was.
    Dr. Stofan, the ingenuity of our workforce will also define 
our response to global problems like climate change. In your 
testimony you discuss how our understanding of climate change 
on Earth is informed by comparative studies of planets across 
the solar system, so how can we leverage information from 
Earth-observing satellites to strengthen our understanding of 
climate change, and to identify successful adaptation and 
mitigation strategies?
    Dr. Stofan. You know, for our Earth-observing satellites, 
the most important thing is continuity, so--because trying to 
extend, you know, trying to extend the models, trying to always 
strengthen our modeling capability for climate change, we 
critically rely on a long-term data set that's consistent. And 
so, supporting the Earth observing satellites, making sure 
those satellites continue to go forward, I think is critically 
important to give decisionmakers around the country the data 
that they need to be able to make critical decisions. And so 
it's not just data for the scientists, it's how do you change 
that data into actionable information that can be used by 
policymakers. And I just think it's critical that that continue 
to be supported.
    Ms. Bonamici. Thank you, I appreciate that. I'm also the 
co-Chair of the House Oceans Caucus, and we've been working on 
marine debris. Every minute the equivalent of a garbage truck 
full of plastic is dumped into the oceans. But our oceans are 
not the only place where there's debris. Of course, we have 
non-functioning spacecraft, defunct satellites, and, as you 
mentioned in your testimony, Mr. Rose, even a toothbrush 
accumulated in our Earth's orbit. So, according to NASA, that 
debris can travel at speeds up to 17,500 miles per hour. Is 
that right? That seems like a problem. In the event of a 
collision, for example, with the ISS, the impact could be 
catastrophic. So, Mr. Rose, is there any hope to meaningfully 
address orbital debris, and how can we mitigate in the future?
    Mr. Rose. A couple of things. One, we have to stop the 
debris environment from getting worse, specifically not doing 
another ASAT test, like China did in 2007. We need to improve 
space situational awareness to prevent future collisions like 
the Iridium/Cosmos event, and we need to enhance best practices 
internationally. The United States has very, very good domestic 
legislation. Not all of our international partners do. And 
then, finally, looking over the horizon, there's this whole 
issue of active debris removal. Very interesting technology, 
but we need to be careful because one person's debris removal 
system can be another person's anti-satellite weapon. But the 
bottom line is we need to address it, and we need to have a 
comprehensive approach.
    Ms. Bonamici. Thank you. And also, Dr. Stofan, one of the 
most commonly cited benefits of human exploration, basic 
scientific research in space, is the benefits from derived 
research, and, according to NASA, more than 2,000 NASA spinoff 
technologies have been documented. So what would you say to 
people who submit that we should, rather than spend money on 
human exploration, or astrophysics, or planetary science, we 
should spend it in other areas? What's the best response to 
that?
    Dr. Stofan. You know, the spinoffs that have come from NASA 
are so comprehensive, from the nutritional supplement that's 
found in over 90 percent of baby formulas that started as a 
supplement for astronauts on the International Space Station, 
the water purification system on the Space Station that's now--
there's a portable form of it that's taken into disaster areas 
around the world. The work that is done every day at NASA, 
whether it's in aeronautics, or space science, or up on the 
International Space Station, has direct and practical benefits 
here on Earth. And, you know, it--I think people just don't 
realize how much NASA technology--literally goes from ski boots 
to the shingles on your roof.
    And so the fact that when you invest in something like 
going to Mars, when you try to do really difficult things, we 
certainly saw that from the Apollo program, it----
    Ms. Bonamici. Right.
    Dr. Stofan [continuing]. Returned benefits in spades right 
here--back here on Earth, and that will improve----
    Ms. Bonamici. Thank you.
    Dr. Stofan [continuing]. Going to Mars.
    Ms. Bonamici. If I had more time, I would ask you all whose 
job it is to convey that, but I don't, so I yield back. Thank 
you, Madam----
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair, and Ranking Member, 
for holding this hearing today, and also a big thank you to our 
witnesses for your service to our country, and for all the work 
that you put into this hearing. I have the honor of 
representing northeast Ohio, which is home to the NASA Glenn 
Research Center, a truly magnificent research center. It 
employs more than 3,000 scientists, engineers, and technicians. 
In a recent trip to the center, I spoke with Director Janet 
Kavandi, also a former astronaut, and an amazing woman--I mean, 
we had just the greatest conversation. But, in any event--about 
the incredible aeronautic and space research conducted at Glenn 
every day, and how NASA Glenn is pioneering the next generation 
of space and air travel.
    So Dr. Stofan first, can you just provide a brief overview 
of just how important our research centers are to the NASA 
program in making sure that we do, in fact, stay on the 
competitive edge of space and aeronautics research?
    Dr. Stofan. You know, you touched my heart there because my 
father is a former director of the Glenn Research Center, and I 
actually grew up literally at then Lewis Research Center, so I 
am particularly passionate about centers like Langley, like 
Lewis, like Ames, our NASA centers around the country that are 
doing cutting-edge research every day in aeronautics, in 
technology, in science. And it's that fundamental basic 
research that helps move our aviation industry forward, that 
helps move all kinds of, you know, create small businesses 
around this country from spinoffs that come out of the 
technology.
    So these research centers, I think, are critical to 
economic growth, especially in those areas in which they sit, 
where they have strong relationships with local universities, 
local businesses. Incredibly important.
    Mr. Gonzalez. Thank you. And I share the sentiment of my 
colleague, who just mentioned seeing all of the spinoffs that 
come off of NASA research technology, and just how important 
it's been to our economy writ large. It's not, you know, I 
think we think of NASA as, you know, going to the moon, or 
going to Mars, or what have you, but it's really fundamental to 
many technologies in our economy, and just think it's 
imperative that we make sure that the funding's kept in line 
with the demands that we have.
    So, switching gears to Mr. Rose, in your testimony you 
state that China has emerged as a major international space 
power, and it's certain to grow significantly in the coming 
years. To me, the U.S.-China relationship will come to define 
the 21st century of U.S. foreign policy. While I believe we 
must work to build a stronger relationship with China, I also 
believe that everything we do with China must be approached 
with an abundance of caution. So could you talk specifically 
about the connection between Chinese space travel, and the 
Chinese military, and the national security implications to our 
country?
    Mr. Rose. Sir, the Chinese space program is a wholly owned 
subsidiary of the People's Liberation Army, and there's been no 
one more outspoken in the U.S. Government, or outside the 
government now, about concerns with China's anti-satellite 
program. But at the same time, we need to work with China on 
things like orbital debris mitigation. That's why I think we 
need a comprehensive strategy for dealing with China that links 
commercial, civil, and national security space. We didn't have 
one in the Obama Administration, we don't have one now. I think 
we need one.
    Mr. Gonzalez. Yes. I share your concern. And then you also 
talked about--and kind of to double down on that, the need for 
greater cooperation. Can you talk about a framework that you 
think would be effective in supporting that? I mean, I'm trying 
to just wrap my head around--how would we even approach this? 
Because if they're a fully owned subsidiary of the military, 
it's hard to even see a path forward.
    Mr. Rose. Now, I agree with you, but I think we need to do 
is--one of the fundamental problems is there's absolutely no 
trust between the U.S. and China right now on outer space. 
Scott Pace, the Executive Director of the National Space 
Council, said that in an article a couple of weeks ago. But we 
need to build some trust. Now, we were able to do that on the 
issue of debris. I talk about that in my testimony. What I 
would recommend is kind of the following. One, find a couple of 
specific projects that we can do on the civil side that will 
not undermine national security, but build some trust, number 
one. Number two, we have to have both a civil dialog to talk 
about the sustainability issues, but we also need to recreate 
the space security talks. We held those first ones in the Obama 
Administration. Unfortunately, they have not been re-
established. I think we need to do that to provide the venue to 
express our concerns about China's activities.
    Mr. Gonzalez. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
witnesses for being here today. Following up on the questions 
about China and other countries, Mr. Rose, can you speak to 
what other countries have done with regard to building out 
their space exploration, or their space infrastructure, and 
what impact that's having on U.S. leadership in that area?
    Mr. Rose. In the context of China, but--or as a whole?
    Ms. Wexton. On the whole, but also with China.
    Mr. Rose. Well, one of the things that I'm concerned about 
in the context of China is that many of our allies and 
partners, to include Italy, are moving forward with cooperation 
with regard--with China, and my concern is if we don't lead, we 
will cede that space to China. To a certain extent, we've done 
that over the last couple of decades. I think American 
leadership is key, and if the United States does not provide 
leadership on space exploration, I assure you the Chinese are 
there, and willing to do it. They actually are using space as a 
key element of their foreign policy, not unlike how we have 
handled space. But my bottom line is this. If we do not lead, 
China will.
    Ms. Wexton. Very good, thank you. Now, I'm from Virginia, 
and we have the Mid-Atlantic Regional Spaceport, and NASA 
Wallops, a number of NASA facilities. Now, Dr. Stofan, and 
maybe Dr. Whitson you know the answer to this as well, based on 
your experiences, can you speak to the relationship between 
civil space and military enterprise, and whether there's any 
conflict between those two?
    Dr. Stofan. I don't think there's, you know, certainly in 
the context of the museum, we tell the story about the fact 
that military space has been there, you know, since we started 
with space 60 years ago, when NASA was founded, there has been 
a military space program. We tell that story at the museum. And 
I don't think there's a conflict. I think there's always issues 
of overlap, you know, but the civilian space program, which is 
the program that Peggy and I have come out of, I think is 
critically important for this country. The research that's 
done, the fact that it is done in the public sphere, I think is 
critically important.
    Dr. Whitson. And I just--I would like to add on that I 
think that developing the infrastructure in space is--pulls a 
lot of the economic growth, with commercial providers coming 
in, with people like the SpaceXs, and the Boeings, and Orbital 
Northrop building new vehicles that are--actually have a 
targeted place to go. And I think our expansion into space will 
continually build that infrastructure that will allow us to 
continue. So--and none of that is going to hurt any military 
aspects that I know of, but I just think all of that 
development, all of that expansion, should be continued.
    Ms. Wexton. Very good. Thank you. I have no further 
questions, so I'll yield back.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair. I'm curious, if you 
would explore a little bit more, Mr. Rose, the threat you see 
by the Chinese.
    Mr. Rose. Sir, one of the things that I would recommend is 
the Director of National Intelligence's Annual Threat 
Assessment--the bottom line is this. China is developing a full 
spectrum of anti-satellite capabilities designed to negate 
America's advantage in outer space, end stop.
    Mr. Posey. Yes, we get that. I remember in the 2012 
Presidential debates Newt Gingrich said we need to establish a 
presence on the moon. He didn't say the Russians are doing it, 
the Chinese are committing to do it, he just said we need to do 
it, without going further, whereupon Santorum jumped up and 
said, you're just pandering to the I-4 Corridor. Romney said, 
well, that's the stupidest thing I ever heard. I'd fire anybody 
on my staff that suggested that. Of course, Mike Griffin, 
former NASA Administrative Supervisor, thought it was 
imminently important we go back.
    Finally it got to Ron Paul, and Ron Paul said, much to his 
credit, it's important to our national defense. Then he joked, 
we need to send all politicians to the moon, and ended the 
discussion about space in the Presidential primary. Very next 
day, what happened? Dr. Stofan knows, and I'm sure Dr. Whitson 
knows what happened the very next day. They had to move the 
ISS. Why'd they have to move it? Space debris. Where'd it come 
from?
    Mr. Rose. China.
    Mr. Posey. Chinese satellite, 8,000 pounds. They took 
target practice on it. A week later they had to move the ISS 
again. Why'd they have to move it this time? More space debris. 
Chinese again? No, Russian space debris. Well, why would the 
Chinese and Russians shoot their own dog? Just to prove to 
themselves, and the rest of the world, that they were capable 
of doing that. If they can take their own satellites out, they 
can take our satellites out.
    So the, you know, the question that begged for an answer 
is, you know, what are we doing about it, and how can we make 
sure that it gets addressed? I think it's an important matter 
to national security.
    Mr. Rose. Sir, I think we need a comprehensive response. It 
needs to include norms of behavior so we prevent activities 
like China's ASAT test. It needs to include resilient U.S. 
systems that can operate in outer space. And it--we need to be 
able to respond if there is an attack on U.S. space assets.
    Mr. Posey. Yes.
    Mr. Rose. But at the same time, sir, I would just add, we 
also need to find a way to cooperate on common interests with 
both Russia and China.
    Mr. Posey. Yes. Any of the three of you read that book, 
``One Second After,'' William Forstchen's New York Times 
bestseller?
    Mr. Rose. No.
    Mr. Posey. I highly recommend it. It's riveting, it's very 
informative. It's based upon a confidential intelligence report 
that Members of Congress get, and it's staggering what happens. 
I mean, you know, we've got 30-some satellites that make our 
credit card use possible, our cell phones, our laptops, give us 
our weather reports. You know, you take a half dozen of those 
things out of operation, and we're in the Stone Age, and the 
consequences are lethal. They're not unfortunate, they're not 
uncomfortable, they're lethal for masses of people. So I think 
it's very, very important that we address this, and I thank the 
Chair for bringing this up today, and hope that we'll continue 
this discussion further. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Madam Chair, and welcome to our 
panel. Good to see you all, and a couple of you have seen me 
hold up the bumper sticker before. And for those new Members to 
the Committee, we heard from NASA a couple years ago that 2033 
was doable, if Congress provided consistent resources to the 
agency to get our astronauts to Mars. So, to the two doctors, 
can we do it? Is it possible for us to get our astronauts to 
Mars by 2033, if the resources are there from the Congress? 
Which is easier said than done, but that's my job, or our job.
    Dr. Stofan. Right. The scenarios that we looked at when I 
was at NASA--and I was wondering--I almost brought up your 
bumper sticker. I was wondering if you brought it along. So 
when we looked at the issue, you can easily get to Mars orbit 
by 2033. Getting to the Mars surface is harder. You would have 
to make a lot more investment in entry, descent, and landing 
technologies. But I think it's--it is certainly possible.
    I hate to throw away that--around that word, possible, and 
impossible. 8-1/2 years from President Kennedy's call to get to 
the surface of the moon, and NASA did it starting from a place 
so far away from where we are right now. So I think we also 
have to keep that in mind. When you challenge NASA to do great 
things, they have shown in the past they can do them, and I 
believe we can do it again.
    Mr. Perlmutter. Dr. Whitson?
    Dr. Whitson. I absolutely agree, and I think political will 
is a huge factor in that. It's got to be the driver. It's the 
driver for China, and if we want it to be a driver, we can make 
it a driver, but it is largely political will, and some 
consistency in purpose, and, of course, a little cash helps.
    Mr. Perlmutter. Thank you. Mr. Rose, you used an 
interesting term, and we really haven't heard it on the Science 
Committee until you did it. You talked about the civilian side 
and the military side being intertwined. That was your term. 
What do you mean by that? Because I agree with you, but I think 
you're the first one that's said something like that.
    Mr. Rose. Well, sir, for example, almost 80 percent of U.S. 
military communications travel over commercial satellites. So, 
you know, we in the community think they're our stovepipes, but 
they're really not, they're integrated. For example, debris. 
Debris does not discriminate from civilian versus military or 
national security payloads. It is--debris is a sustainability 
issue, but it's also a security issue. So my view, and I would 
say General Hyten's view, the Commander of U.S. Strategic 
Command, is that we have to think about space in a more 
integrated manner.
    Now, I will commend the Space Subcommittee, because last 
year you held a hearing with the Strategic Forces Subcommittee 
on the future of SSA and space traffic management. I would 
encourage you to hold additional hearings jointly with the 
Committee, because, again, as we move forward, there's going to 
be--it's going to be increasingly difficult to separate 
national security space from civil and commercial space.
    Mr. Perlmutter. Let me ask you a question about--I've got a 
couple other interests besides Mars, but Mars is the main 
thing, to get our astronauts there. But one of them involves 
sort of--the remote imaging----
    Mr. Rose. Um-hum.
    Mr. Perlmutter [continuing]. And the ability to--of the 
commercial sector to start taking greater advantage of that. Do 
you have any comments about that?
    Mr. Rose. Sir, I don't want to go there, just because it 
quickly gets into classified information, but I'm thinking----
    Mr. Perlmutter. Well--and that's the point----
    Mr. Rose. Yes.
    Mr. Perlmutter [continuing]. Is we need to have a better 
system----
    Mr. Rose. Right.
    Mr. Perlmutter [continuing]. That allows it to become 
commercial, and not always the intelligence agencies always 
saying, sorry, you can't show that stuff, even though it's my 
backyard in Arvada, Colorado, which is--probably don't want 
that----
    Mr. Rose. Yes.
    Mr. Perlmutter [continuing]. Shown, but we need to be able 
to open that up more, and that's the point.
    Mr. Rose. Yes. And beginning a discussion with your 
colleagues on the Armed Services Committee, I think, would be a 
good place to start.
    Mr. Perlmutter. OK. Last thing, and just more of a comment, 
but--is on space weather, which, again, where we have this 
integration, or this intertwine thing, because, as we have 
flares or radiation, it affects our astronauts, or Space 
Station, but it affects all of the national security satellites 
and things that we have. So I just appreciate your testimony. 
Thank you for your service to the country, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Olson.
    Mr. Olson. I thank the Chair, and it is an honor to have 
this panel before us this morning. I went to Rice University. 
As you mentioned, Dr. Stofan, John F. Kennedy made the great 
speech there on September 12 of 1962, committing this country 
to go to the moon before the decade ended, and we did that, as 
you said, in less than 8 years. Miraculous.
    I moved right there at Kirby and NASA Road 1 in 1972. I was 
there for Apollo 17's homecoming, the last manned flight we've 
had since that time. I was there for the 1970s, and saw Skylab, 
a great success. Remember when she deployed we tore off the 
solar panel tore off the heat shield, so we had to make it 
habitable and get power there. We did that, and then we started 
flying the Space Shuttle, and built the Space Station. And as 
you guys had mentioned earlier, that Space Station's been 
occupied now for over 20 years straight by human beings.
    I would like to just recognize Dr. Whitson for what she's 
done. I mean, she's a true hero to all Americans, especially 
young women. I could spend all my time gushing about your 
accomplishments, but I'll stick with the big one. This woman 
spent 665 days in orbit over multiple missions. That's a record 
for a human being in America, and for a woman in the entire 
world. So thank you for your inspiration. I'd like to ask you--
one thing I'm concerned about is having a workforce for the 
future, which means people getting STEM educations. Dr. 
Whitson, how can you help us promote women getting that STEM 
education and being the next Dr. Whitson?
    Dr. Whitson. Well, I think they--being the next Dr. Stofan 
might be more impressive.
    Mr. Olson. She's----
    Dr. Whitson. But in any case, I definitely think NASA 
serves as an inspiration to a lot of our young people. It does 
require that we get out there and reach people at a very young 
age, I believe. I was nine when we first walked on the moon, 
and that's when I wanted to become an astronaut. And when I 
talk to young children, it is the age group that I think--
around that timeframe that is most influenced by people telling 
them they can do some things, and achieve their goals. And so I 
think it's really important that we get to young people, and 
try to show them all the options that are out there, because, 
if they're exposed to these things, and see people doing these 
things where they might be in the future, it will inspire them.
    Mr. Olson. Yes, if they could see Bruce McCandless on a 
jetpack out there, in his own spacecraft, go out there and 
drive around the Space Shuttle, that gets them inspired, 
because I saw that firsthand growing up on the Johnson Space 
Center. Dr. Stofan, like to add that comment, women in STEM? 
Any comments?
    Dr. Stofan. I think, you know, Marian Wright Edelman said 
if you can't see it, you can't be it, and so I think it's 
critically important that we get role models like Peggy out 
there as much--we try to tell all the stories in our museum. 
It's one of our goals for renovating the National Air and Space 
Museum, to make sure we tell all the stories. And I just think 
it's critically important that we show girls that they can be 
not just pilots and astronauts, but also someone who's building 
airplanes, someone who's repairing aircraft, someone who's 
building spacecraft. They can do anything.
    Mr. Olson. Let's just talk about the moon mission. In my 
humble opinion, I think that's the right mission for us. It was 
canceled by the Obama Administration constantly. I thought that 
was a mistake. But Mr. Trump has it coming back. I've heard 
from experts, if we're going to Mars, to train for that, we 
should probably train at the moon, in terms of gravity. You 
know, Mars has 1/3 of our gravity, the moon has 1/6. I know the 
pool there in Houston is great, but it's not actually training 
there. Also we talked about the Space Station debris. Hey, how 
about a Space Station on the moon? No debris issues. And so, 
Dr. Whitson, how do you think going to the moon helps us with 
here on Earth, a Space Station transition, and going to Mars 
and beyond?
    Dr. Whitson. Well, I think one of the most important 
aspects of our future research is actually trying to understand 
how we can utilize the resources either on the moon or on Mars 
in order to----
    Mr. Olson. Water.
    Dr. Whitson. Yes, water being a prime one, but there are 
lots of resources. For instance, if we can take the carbon 
dioxide out of the Martian atmosphere and make it into oxygen, 
these are the ways that we are going to be able to sustain our 
exploration--sustain our presence. And all of it is a building 
block to get to where we want to be, which is Mars, for at 
least 2020--or 33, and, you know, and beyond. So I really 
believe that.
    Mr. Olson. Well, thank you. I'll close by saying if you 
ever have a program, like taking Members of Congress into 
space, like Jake Hart and Bill Nelson, I'm number one in the 
line.
    Chairwoman Johnson. Thank you----
    Mr. Olson. Thank you.
    Chairwoman Johnson [continuing]. Very much. Dr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman. You know, in this 
conversation about getting more women into STEM, I think--I'm 
going to make note that the Chairperson of the Science, Space, 
and Technology Committee is a woman, that the Chairperson of 
the Space Subcommittee is a woman, and I think they're role 
models to inspire that next generation as well, as the father 
of a daughter. I want her to dream big.
    There's so much that I want to talk about in 5 minutes. You 
know, ISS, what do we do next. I know we've talked a little bit 
about situational awareness, but we've touched on space debris, 
how do we clean up space. You know, commercial space, as more 
startup companies, et cetera, start to get into this area, and 
as more international institutions get into the space--who is 
the air traffic controller? How do we navigate that? How do we 
do all that? I'd like the United States to write the rules of 
that road, that we can then take to the rest of the world. 
Obviously another one.
    We talked about Mars 2033. As a child of the Apollo 
missions, you know, growing up in Downey, California, which is 
home of Rockwell International, and, you know, growing up with 
a lot of my friends whose parents worked in the aerospace 
industry, we challenged ourselves to do something we didn't 
know how to do, yet we did it faster, and we put the 
resources--it wasn't a Democratic or a Republican agenda. It 
wasn't an Executive Branch or a congressional agenda. And if, 
you know, I think it's possible for us to do Mars 2033. I think 
it's at least possible for us to challenge ourselves to do 
that, but it is going to take a long-term strategic vision. It 
can't change from one Administration to the next.
    It is going to take a cohesive Congress, working with NASA, 
because you're looking at decade and multi-decadal challenges, 
and--for both NASA, as well as the commercial sector, and our 
partners out there, they can't make these investments if 
they're going to change every 4 years, and I think that's the 
challenge on us, that we ought to step up and actually put that 
strategic plan together.
    A colleague touched on workforce issues as well. I do want 
to make sure NASA has that workforce. The impact of the 
government shutdown, my understanding is we lost some critical 
talent that we may never get back, and, again, I would put that 
on this body not to do that again, because it is hard enough 
for us to recruit the scientists that we need to fill these 
critical agencies. If we lose them, we're not getting them 
back. So let me ask a question, I guess.
    Often in this body folks only see the allocations that 
we're making, the moneys that we're appropriating. Yes, we 
spent a lot of money on the Apollo mission, but we rarely 
quantify that return on investment, all the technologies that 
come about that. And I don't know if that's something that 
we've ever actually done, and maybe, Dr. Stofan, if we think 
about, you know, these aren't just cash outlays. These are 
investments that we're making, and there's huge return on those 
investments, and----
    Dr. Stofan. There's a number of different numbers out 
there. I know that NASA did one smaller-scale study looking at 
technology investments through the ISS, and what the return on, 
and you'll--if you Google this, which I have, you'll see 
numbers between sort of $3 and $5 in return for every dollar 
invested. I'm not sure there's ever been actually a rigorous 
study done, except for in small individual areas of NASA, but I 
think the benefit is clear. If NASA can publish a 1-inch thick 
volume every single year on spinoffs that came out of the Space 
Station, that's enough evidence for me.
    Mr. Bera. I mean, it's pretty amazing. I had a chance to 
visit the NASA Ames facility in my home State of California, 
and visit a company called Made In Space that is doing 3D 
printing, and learning how we could 3D print the resources that 
we need, so if we go to the moon, you know, we're not going to 
have to ship all the materials up there, if they could take 
moon dust, turn that into the building blocks to build a 
habitable place on the moon. Same thing if we go to Mars. And 
the applications here at home are going to be tremendous as 
well. As a doctor, what we're learning off of the Space Station 
with regards to health, as we try to better understand and 
address the growing impact of climate change and global 
warming, what we're going to learn from space, and through the 
space missions is going to be incredibly important to help us 
address some of our domestic challenges.
    So, I do think, for this Committee, and for the 
Subcommittee, it probably does make sense for us to think about 
how we articulate the investment, but the real return on 
investment. How it is going to help us both economically, but 
also address some of the challenges. So, with that, I'll yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair, and I appreciate all of 
our witnesses being here today. I just think this kind of 
discussion is extremely good as we try to make decisions about 
the budget and so on, but my first question goes to Dr. 
Whitson. I just want to compliment you for serving as the 
Commander of the International Space Station not once, but 
twice, that had to be an interesting experience. I'm not sure 
I'm ready to go with Dr. Olson yet, so I think I'll take a 
while to get in shape. But anyway, you make mention--I found 
this interesting. You make mention about the early stages of 
human habitation on the moon's surface, and--while we're taking 
advantage of local resources, and then someone mentioned water 
again, as you did in your testimony. So I guess my question is 
how applicable is it that we make a test run to the moon, 
maybe, and take advantage of some of the resources there as we 
try to go to Mars? Is that an essential component to our 
research?
    Dr. Whitson. I think it will be. We have found so many 
things in the 20 years of operating on ISS that, you know, we 
have brilliant engineers, but once we get it up there, and we 
test it out, we find out, well, maybe we ought to modify it to 
work better. And I think doing some of that exploratory testing 
on the lunar surface can help us be better prepared for what we 
will find when we get to Mars, because that's a lot, lot 
farther away. And so being better prepared is going to make the 
mission more likely to succeed.
    But I think taking advantage of those resources that we can 
find on the moon potentially could even serve as a fuel depot 
if we--and send us out to Mars even easier. So that's an option 
for us, that we would build on the stepping stone of 
infrastructure to get us further and further out into space. So 
I really do feel that those steps are going to be important for 
us, and it's a good place for us to learn, where we're just a 
few days away from Earth, rather than, you know, 6, 8 months.
    Mr. Baird. I share your concern there. That's anyway, my 
second question also goes to Dr. Whitson, and that's regarding, 
you know, the public's attention is drawn many times to NASA's 
activities in outer space, and yet we continue to work with 
critical forward-leaning technologies, such as low-boom 
supersonic demonstrators and hypersonic aircraft. So the 
question is, how can NASA best serve our Nation's needs for 
aviation research and development, and how should we focus in 
our limited resources when it comes to aeronautics?
    Dr. Whitson. Well, I think definitely NASA's still doing a 
lot of cutting-edge research in aeronautics, as well as space 
research, so I am very supportive of what we're doing to 
develop supersonic space flight. I think it'll be a great 
spinoff, maybe even used by--commercially for other companies 
within the United States, hopefully building new aircraft that 
are going to take us further and faster, but also all of the 
software and other technologies developed to keep aircraft safe 
while in low--the really low Earth orbit.
    Mr. Baird. Thank you. My next question, then, goes to Dr. 
Stofan, and that deals with, you know, we're starting a new 
Congress here, and we have an opportunity to take a critical 
look at NASA's near-term goals and their aspirations. So my 
first question is, what should NASA be focused on in the next 
year or two, and then what issues demand the agency's immediate 
attention? And I think some of that has been addressed already, 
but, just for my sake, would you elaborate on that?
    Dr. Stofan. Yes. I--to me the most critical thing, if you 
look at NASA over the next couple years, it's going to be 
maintaining the critical balance that NASA has across 
astrophysics, Earth science, planetary science, and 
heliophysics. Maintaining that scientific balance, making sure 
the investments are being made to gather data from--space 
weather came up earlier, to making sure that we're gathering 
data that helps farmers around the country, helps us understand 
our water resources around this country. Those data are 
critical, and we need to pay attention to the--those critical 
data sets.
    And, as we move forward, saying, what is a sustainable, 
affordable plan for getting humans into deep space is critical. 
And then I'm very in favor, and happy, you brought up the 
supersonic--the hypersonic work that NASA does. Those 
investments really help move our aviation forward in this 
country, so----
    Mr. Baird. Thank you. And----
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. And thank you, Madam Chair, and thank you to 
our panel. You know, one of the things that strikes me is the 
difficulty in penciling out a, you know, sustainable, 
affordable plan for a really aggressive move into space is that 
in the last 50 years we've made very little progress in the 
cost per kilogram of getting stuff into low Earth orbit. You 
know, there's--if you look at all of the future plans, there's 
very little that could not be completely understood by Wernher 
von Braun, that we're up against fundamental physics limits in 
the specific impulse of chemical rockets.
    And you mentioned the hypersonic work. You know, there are 
various ways--reusability. You know, the Shuttle was supposed 
to use--to reduce the cost per kilogram into orbit. It did not 
work. The cost of refurbishing space hardware to space 
specifications, you know, is large. And we're--even the 
proponents of reusing the booster stage, you know, claim less 
than a factor of two cost reduction.
    And so my question is, when you make long term plans, how 
do you split your investment between just sort of using 
equipment that we know how to build, and have known how to 
build for 50 years, optimizing it somewhat, and investments in 
fundamental transformative research, you know, things like 
electromagnetic launch mechanisms, things like air breathing 
systems that get most of the energy for low Earth orbit, where 
you're at least getting the oxidizer from the atmosphere. And 
how do you, you know, how do you split your investments, and 
are we making a mistake by just, you know, doing the same thing 
over, and over, and over, in terms of getting stuff into orbit? 
We're now returning to heavy launch vehicles as the cheap way 
to get stuff into orbit, which was the conclusion back in the 
1960s.
    And so it seems to me that we're underinvesting in the 
long-term research, particularly in getting past the barrier to 
getting into low Earth orbit. Anyone who wants to comment on 
that?
    Dr. Stofan. Yes. This is actually a pet issue of mine, and 
it was certainly something I tried to work on at NASA. There's 
always--when you're investing in future technologies, there's 
always a really difficult trade into do I put my money toward a 
flagship that maybe needs money to get off the ground 5 years 
from now, or am I investing in truly transformative 
technologies that are going to help us 20, 30 years down the 
line to do the really bold things that we would like to do? 
Whenever I go out and talk to elementary schools, or junior 
highs, or even high schools, I tell them that they have to go 
home that night and invent warp drive because of the very 
issues you just outlined.
    One of my favorite programs at NASA is called NIAC. It's 
the NASA Innovative Advanced Concepts, where they do take a 
small--relatively small amount of money every year and invest 
in really far out ideas. I think those technology investments 
are really critical, and I would urge you, as you look at 
NASA's budget, to say, OK, clearly you have to really focus on 
near-term technologies, or we won't get the job in front of us 
done. But taking some portion of the money and investing in 
truly transformative technologies, I think, is critically 
important.
    Mr. Foster. And the nation that comes up with those 
transformative technologies is going to own space, so it's my 
opinion that we've been underinvesting in this. You see it in 
national defense too. There were problems in the original Star 
Wars plan, which contemplated thousands of launches to support 
Star Wars, would've wrecked the upper atmosphere, OK? And this 
is another fundamental problem with, you know, with chemical 
rockets. And I really think it's another reason why we have to 
get past just doing the same thing again and again. Any other 
comments on that?
    Dr. Whitson. Well, I would just add on, I do think that we 
need to invest in newer technologies and research, and I think 
even on the International Space Station they're planning to put 
on a new ion propulsion to test.
    Mr. Foster. Which doesn't get you into low Earth orbit. You 
know, ion propulsion drives----
    Dr. Whitson. Yes.
    Mr. Foster [continuing]. Have fantastic----
    Dr. Whitson. That's true.
    Mr. Foster [continuing]. Specific impulse, but they're 
useless for getting into low Earth orbit. And related to that, 
actually, is space nuclear power. There was a recent conference 
that I got a chance to address it, NETS it's called, Nuclear 
Engineering and Technology in Space, that was up at PNNL 
(Pacific Northwest National Laboratory) a few weeks ago, and 
one of the subjects there was the use of space nuclear 
reactors. There are two main uses. One of them is for 
propulsion, the other one is for power. When you actually go to 
the moon, go to Mars, it would be nice to have a compact 
nuclear reactor.
    And one of the difficulties there is if all of the nations 
which will be spacefaring, which might be a dozen in our 
lifetimes, if they all start using high-enriched uranium, then 
we will have many, many nuclear weapons' worth of weapons-grade 
material used in those. And I was wondering what you think 
about the usefulness of having the U.S. lead the world in 
developing space-qualified reactor designs using low enriched, 
non-weapons-grade uranium, and really making that the standard 
for all spacefaring nations? Yes. Mr. Rose?
    Mr. Rose. Sir, I don't think I'm competent to talk about 
that, but I can take it for the record, if you'd like.
    Mr. Foster. Yes. No, I think it's a very important issue, 
which we have to face, you know, in the next few years, as we 
define our space reactor R&D program. And I guess my time is 
up, and--yield back.
    Chairwoman Johnson. Thank you very much. Dr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. I want to 
thank all of our illustrious witnesses for being here today, 
and quite a record amongst the two ladies sitting out there. 
And, as a father of three daughters and seven granddaughters, 
that's very inspiring, so thank you for what you all have done.
    On April 11, 2018, this Committee held a hearing titled, 
``Scholars or Spies? Foreign Plots Targeting America's Research 
and Development.'' On September 27, 2016, this Committee held a 
hearing titled, ``Are We Losing the Space Race to China?'' On 
20--June 20, 2014, this Committee held a hearing titled, ``NASA 
Security: Assessing the Agency's Efforts to Protect Sensitive 
Information.'' According to the U.S.-China Economic and 
Security Review Commission annual report, China continues to 
pursue a broad counterspace program to challenge the U.S. 
information superiority in a conflict, and disrupt or destroy 
U.S. satellites, if necessary. Based on the number and 
diversity of China's existing developmental counter-space 
capabilities, China probably will be able to hold at risk U.S. 
national security satellites at every orbital regime over the 
next 5 to 10 years.
    China also undertakes significant effort to acquire and 
assimilate foreign technologies, especially from the United 
States. And in 2007, China conducted an anti-satellite test, 
which has already been mentioned today, that produced the 
largest amount of orbital debris in a single event. NASA's 
Orbital Debris Program Office estimated that roughly 30 percent 
of the objects greater than 10 centimeters would still be in 
orbit by 2035. In 2011 this debris passed within 6 kilometers 
of the ISS.
    Because of the risk posed by cooperation on space issues 
with China, Section 530 of the Fiscal Year 2019 Appropriations 
Act, as well as every Appropriations Act since 2011, prohibits 
NASA and the Office of Science and Technology Policy bilateral 
interaction with China unless the Administration can certify 
that China does not pose a threat to U.S. technology, and that 
they are no longer a violator of human rights.
    So, Mr. Rose, should the Appropriations Committee revisit 
this prohibition, and if so, how can we ensure the protection 
of our national security, and prevent the theft of our Nation's 
intellectual property?
    Mr. Rose. Sir, I think you're absolutely correct, that 
China is developing a full range of anti-satellite 
capabilities, and I've been very outspoken on this, both----
    Mr. Babin. Yes, sir.
    Mr. Rose [continuing]. In----
    Mr. Babin. Appreciate it.
    Mr. Rose [continuing]. And outside of government. I did not 
recommend in my testimony that the Congress repeal. I--what I 
did recommend is that we need to manage China. We need a 
comprehensive strategy, and as part of that comprehensive 
strategy, the Committee should look at this. And this was 
driven, my testimony, by some comments that Charlie Bolden, the 
former administrator, made a couple of months ago. But I do not 
discount the potential thread that China poses to our space 
assets, however, we need to work with China on some of the 
sustainability issues. So----
    Mr. Babin. All right.
    Mr. Rose [continuing]. You know, we've got to get a 
balance.
    Mr. Babin. Absolutely. Thank you very much. I'd like to add 
an op-ed here into the record, Madam Chair, if you don't mind? 
``Navy Industry Partners are `Under Cyber Siege' by Chinese 
Hackers, Review Asserts,'' if you don't mind.
    Chairwoman Johnson. No objection.
    Mr. Babin. All right. Thank you. Now, I'd also like to ask 
all of you, if you don't mind, the International Space Station 
is one of our Nation's greatest technological and international 
achievements, and currently the U.S. and its partners are 
planning to operate the ISS through 2024. According to the 
National Research Council's Pathways Report from 2014, if NASA 
maintains a presence on the ISS past 2024, without significant 
increases to NASA's overall budget, it will lack the resources 
to fund the development of systems that will push human 
presence beyond low Earth orbit until late in the next decade.
    This would leave the Orion vehicle without a clearly 
defined mission, yet abandoning ISS could mean ceding global 
leadership in low Earth orbit to other nations. How do we 
resolve this dilemma? If additional funding is the answer, 
where do you propose that we get the additional funding? And, 
Dr. Whitson, I'd like to ask that question of you first, and 
then, maybe, if we've got time, Dr. Stofan.
    Dr. Whitson. Sure. I think it's a very complex question. 
We've had to deal with it in the past in--for instance, we shut 
down the Shuttle program with no capability to launch U.S. 
citizens into orbit, and we are still waiting, 8 years later, 
for that capability. So I think we have to be very careful 
about how we plan a transition so that we can do it in such a 
way that we still don't lose that leadership in low Earth orbit 
as we transition further beyond. So I do think it's an 
important question to ask.
    I'm not sure where the money comes from, but I think if we 
can encourage commercial, and maybe even more international 
partnerships, maybe that could help us decrease the funding 
from the ISS----
    Mr. Babin. OK.
    Dr. Whitson [continuing]. And allow it to go----
    Mr. Babin. Can we indulge, Madam Chairman, Dr. Stofan?
    Dr. Stofan. I agree with Peggy. I mean, the problem is, 
obviously, it's been long recognized that you need that wedge 
of funding that goes to the ISS, and certainly a deep space 
gateway would be a destination for Orion. So I do think you 
have to balance that retirement. And, as Peggy said, I think 
commercial and international partnerships are critical to say, 
how do we maintain a presence--a human presence in low Earth 
orbit while NASA focuses its resources on the next destination?
    Mr. Babin. OK. Thank you very much, and I yield back.
    Chairwoman Johnson. Thank you very much. Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Madam Chairwoman, and Ranking 
Member Lucas, for holding this important hearing today, and 
thank you to the really excellent witnesses that we've heard 
from testifying here this morning on the future of America in 
Space. As a native Houstonian, I grew up proud to hear Neil 
Armstrong's voice throughout my childhood saying, ``Houston, 
Tranquility Base here. The Eagle has landed.'' And, as a 
Representative from the Houston delegation, along with my 
colleagues here on the Committee, we all share that same pride 
as a leader in space, and as a real home for NASA.
    From the early days of the Gemini and Apollo missions, 
through the Space Shuttle Program, and the International Space 
Station, the Johnson Space Center continues to play, as it has, 
a pivotal role in leading, managing, and operating America's 
major human space programs. Additionally, the Johnson Space 
Center is a positive force in the greater Houston region, and 
plays a vital economic role in our community. The dollars spent 
in procurements, grants to educational institutions and non-
profits, and aerospace contractors enhances business 
development, and creates jobs in our region. And, as we've 
heard today, investment in technology returns benefits that 
many of us don't even realize as we use them, everything from 
baby formula to ski boots. So I appreciate the testimony that 
we've heard. We're committed to that.
    But we are seeing a change--some changes in the industry, 
and, Dr. Stofan, I'd like to hear from you a little bit more. 
In your testimony you talked about finding the right balance 
with the private sector that would allow NASA to focus on big-
picture exploration and cutting-edge science in aeronautics. 
NASA is the second largest Federal employer in the Houston 
area, with nearly 3,000 civil servants, and more than 7,000 
Federal contractors. So what do you think is the best way to 
foster cooperation that benefits NASA and the private sector as 
we head into this commercialized area in the space industry?
    Dr. Stofan. I think it's really thinking about roles and 
responsibilities. So what is the private sector best suited to 
do, and I think we've seen that with commercial crew coming 
forward. We've certainly seen that amply demonstrated with 
commercial cargo, where you've had SpaceX and Orbital Northrop 
Grumman delivering cargo to the Space Station, and we're soon 
to see SpaceX and Boeing sending crew to the Space Station.
    And then, as we move to the moon, I think the question 
becomes ever more complex. What should NASA be investing in, 
where's the private sector going to put their investment, and 
how does that balance out to, again, make sure that NASA can 
continue its important science programs, its important 
aeronautical research, and continue to move humans outward? And 
so I think it is all about balance, and it's about looking at 
what is the private sector willing to take on? And I think 
we're going to see this, especially in the next decade, in 
terms of low Earth orbit. We've made a lot of investment on 
research on the Space Station. Is there an economic case, for 
example, for manufacturing, for drug development in low Earth 
orbit, where private companies will be willing to put the 
majority of their dollars because they see a profit motive. And 
that, I think, is going to play out over the next decade, and I 
think it's not clear what's going to happen.
    Mrs. Fletcher. Thank you. Would anyone else like to weigh 
in on that question?
    Dr. Whitson. I'd just like to add, I do think the 
International Space Station, on my last mission there, we were 
conducting a lot more complex, and--what I would call cutting-
edge research. And I think there's going to be, you know, we 
were growing stem cells of various types, and doing research on 
new drugs and applications. And I do think that there can be a 
commercial presence, or a commercial outcome, that will be 
beneficial to pharmaceutical companies, or others like that, in 
the future. And so I--but I think it's going to take some 
advertising, I guess, to make that a reality.
    Mrs. Fletcher. Thank you. And, Mr. Rose, maybe I can take 
part of that question and kind of apply it to something that 
we've talked about, and you've been asked about a lot already 
this morning, which is the discussion about the debris that 
we're seeing. Do you think that there is potentially a role for 
some of the private sector to deal with cleaning up space 
debris, and preventing potential hazards and collisions from 
occurring?
    Mr. Rose. Absolutely, ma'am, but I think we need to do it 
in a way to ensure it's consistent with our national security. 
But the bottom line, you already have a number of companies and 
private entities that are looking at debris removal capability. 
So the bottom line is yes.
    Mrs. Fletcher. Thank you. I yield back my time.
    Chairwoman Johnson. Thank you very much. Mr. Biggs.
    Mr. Biggs. Thank you, Madam Chair, and I thank each of you 
for being here with us today. Last year I participated in a 
panel on space in Arizona. It was--two major missions were a 
major focus of the conversation, and one of those missions is 
Osiris-REx. It's being led by the University of Arizona, and 
has already made contact with the asteroid Bennu. Another 
mission, called Psyche, which will head out to an all-metal 
asteroid of the same name, is scheduled to launch in 2022. That 
mission is being led by Arizona State University (ASU), 
notwithstanding our, you know, the recent developments on 
bribery, and getting into universities, and they didn't want to 
go to ASU. That's a shame, if they were interested in space, or 
partying, apparently.
    But you will see that there's a common thread to both of 
these missions. They're both university-led missions. Osiris-
REx came in on time and on budget, and so far it looks like 
Psyche's on time, and will probably be on budget as well. So my 
question to you, our esteemed panel, great knowledge and 
experience on this panel, and I am delighted to be able to ask 
you this question, is--given that university-competable 
missions have an impressive record, do you think we, as 
policymakers, should encourage more of these joint efforts like 
this? And, if so, what do you see is the best way to facilitate 
that, both from the policymaker point of view, and also from 
the agency point of view?
    Dr. Stofan. Principal investigator (PI)-led missions--and 
I'm a big fan of both of the missions you mentioned, Psyche and 
Osiris-REx, incredible missions that are really going to help 
us understand the fundamental building blocks that made our own 
planet. These PI-led missions at NASA, whether it's in 
planetary science, astrophysics, heliophysics, or Earth 
science, where we do have a competed line--NASA does have 
competed lines, you are right, those missions have a wonderful 
track record of coming in on time and on budget.
    And part of the reason is those missions have to go through 
a pretty rigorous proposal process. And so, when I spoke 
earlier about that upfront costing of a mission, and the effort 
that has to go in, that's a big reason why those missions tend 
to be--stay on budget. They go through a rigorous competition 
process, and they really have to hone their estimates. And they 
don't tend to try to do things that are really pushing 
technology, really pushing what we can do.
    Face it, when you look at the design of James Webb, it is 
pushing every technology, from the sun shade to the mirrors 
themselves, and so you're going to get into trouble because 
there are so many unknown unknowns. With PI-led missions, 
that's been driven down to a much smaller box.
    Mr. Biggs. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. Thank you to the panel. 
I want to focus a little bit more on the Earth. In 2009. the 
National Academies published a study, ``America's Future in 
Space,'' which listed, among other things, that NASA and NOAA 
should lead the formation of an international satellite 
observing architecture capable of monitoring global climate 
change and its consequences. I am troubled, angry, a little bit 
frightened by the fact that the Trump budgets have consistently 
scaled back on those programs in their budget proposals, 
including the Plankton, Aerosol, Cloud, ocean Ecosystem (PACE) 
mission, and the Climate Absolute Radiance and Refractivity 
Observatory (CLARREO) pathfinder mission, both of which were 
designed to really study how our climate is changing, and what 
we need to know to try to stay ahead of this, rather than 
falling behind.
    First question is for Dr. Stofan. Are we doing enough 
currently to meet the recommendations made by the National 
Academies in 2009, and if not, what kinds of investments should 
we be prioritizing to make sure we're on top of climate science 
in space?
    Dr. Stofan. PACE and CLARREO were both recommendations of 
the previous Decadal Survey, as you said, and there has 
actually subsequently been a Decadal that came out a year ago 
that had subsequent recommendations, but certainly I think it's 
critically important for NASA to implement the Decadal, because 
you've got scientists that come from around the country, really 
put aside their own specific research and say, how do we really 
pick the best missions to move the science forward? That's 
where PACE and CLARREO came from. Those missions are critical 
to help us understand this planet, and the recommendations of 
the subsequent Decadal, when we now know so much more about 
climate change, and so much more about how the effects of 
climate change are affecting us right now, from increased 
severe weather, to impacts on agriculture. Too much water in 
some places, too little in other places. So the missions that 
the scientific community recommends are really critical not 
just to helping us understand and model climate change, but to 
help us mitigate the effects that we are already seeing, not 
just in this country, but around the world.
    Mr. Casten. Thank you. You'd mentioned mitigation, and 
watching, I want to focus somewhat more narrowly now on the 
actual emissions release, and--for non-CO<INF>2</INF> 
greenhouse gases. In 2014, a European Space Agency (ESA) 
satellite found, between 2003 and 2009, a methane hot spot in 
the four corners region. It was tied to natural gas production, 
and the numbers that I was just blown away by was that, after 
they had actually crunched the data, it turned out that the EPA 
(Environmental Protection Agency) estimates of fugitive 
emissions were off by 50, 75, 80 percent. Without ESA's 
satellite, we never would have even spotted the leak, much less 
have had a sense of that.
    In 2015, there was a gas leak at a facility in Aliso Canyon 
Oil Field in Southern California that released 100,000 tons of 
methane. And methane, as you know, but it's, you know, it's 
about 80 times as potent a greenhouse gas over 10 years as 
CO<INF>2</INF>. The satellite technologies deployed together 
within the private sector, and those proposed for use in the 
Environmental Defense Fund's methane sat could easily detect 
those kind of leaks.
    My question for you all is, do we currently have a 
satellite network that's necessary to detect that, or are we 
going to rely on other governments or the private sector to 
keep an eye on that?
    Dr. Stofan. Right now that is the situation, and that--I 
believe methane was--monitoring methane was something that came 
out of the most recent Decadal. So the fact the private sector 
is coming forward with a satellite--methane is very hard to 
measure from space. Getting the right resolution, making sure 
that you're accurately measuring it is tough, so it's been an 
area that's needed technology development that's been going on. 
But, as you say, the Europeans had come forward with a 
satellite. The U.S. has been studying methane monitoring. And, 
as you say, it's all about intelligence. If you can measure 
things on the ground, you can then make the decisions that you 
need to make. If we don't know what's happening, especially 
with methane, which is such a potent greenhouse gas, as you 
say, you know, you're working in the blind. So these satellite 
data are incredibly important not just for the scientific 
community, but for decisionmakers who have to decide how to 
best manage the environment locally, regionally, and in this 
country.
    Mr. Casten. And question for all the panelists, would it be 
fair to conclude that relying on that data from the private 
sector and other governments, both in the climate space and for 
other purposes, frankly, is a risk to our national security, to 
our wellbeing, and ultimately to our competitiveness?
    Dr. Whitson. Well, certainly to the competitiveness, I 
think. We need to be able to--we need to lead, if we're going 
to lead. We have to be there.
    Mr. Rose. I don't have anything to add, sir.
    Mr. Casten. Thank you. I yield back my time.
    Chairwoman Johnson. Thank you very much. Mr. Waltz.
    Mr. Waltz. Thank you, Madam Chairman. Just to echo some of 
the other sentiments of my colleagues, I was just on the floor 
of the House in commemoration of National Women's History 
Month, and also, as a son of a single mother, and father of a 
15-year-old girl, I truly applaud the groundbreaking, ceiling-
breaking work that both of you have done.
    This Committee, I think, really has--and all of us really 
have, I think, a mission and a mandate to continue to explain 
to all Americans, and to educate all Americans, how dependent 
our modern way of life is on space, from over-the-horizon 
navigation, to our banking system, to how we communicate, all 
things that we've talked about today. But I don't think that is 
fully realized by everyone, and I commend your work to continue 
to do that, and I certainly take that on as one of my missions. 
But then also, at the same time, as we've talked about, how 
fragile that infrastructure is. It's not built for redundancy, 
it's not built for survivability, and it truly, I think, is a 
national vulnerability at this point.
    I do want to take a moment, though, to applaud this 
Administration for breathing new life into the Space Council, 
the space policy directives, my colleagues, and their op-eds. 
Along those lines, I do think it's worth noting that NASA is 
the only civilian agency in the President's budget that just 
came over that is not looking at a potential cut. And, of 
course, we're so excited about the private sector. I represent 
Northeast Florida, and space is in our DNA, and I think that 
triangle between Cape Canaveral, Daytona, and Embry-Riddle, 
which is an aeronautical university which is in my district in 
Orlando, truly can be at the heart of the future space 
industry. So, to questions.
    I wanted to give you, Mr. Rose, a chance to also weigh in 
on this perception, perhaps reality, that there's this kind of 
zero sum, from a budgetary standpoint, in sustaining the Space 
Station, and having the resources to truly make the moon and 
deep space a reality. Is that a viable path to expand the 
partnerships, and to truly make that available for commercial 
use in the timeframe that we need, in your opinion?
    Mr. Rose. Sir, to be honest with you, I don't know. As I 
mentioned----
    Mr. Waltz. OK.
    Mr. Rose [continuing]. Earlier, I'm kind of a military 
space guy, so I don't----
    Mr. Waltz. OK.
    Mr. Rose [continuing]. Know the answer, sorry.
    Mr. Waltz. That's OK. But I was just out at the National 
Reconnaissance Office and, for me, what was so telling there 
was how interdependent all of these things are. I mean, just 
the things that they're able to do now because of what the 
private sector is doing, and the affordability of launch, all 
of those things, is really fantastic.
    Then maybe I'll open it up to a broader question. How can 
NASA do things better? I mean, it's one thing to say we need 
more, you know, more is always better in terms of resources, I 
got it, but there is an efficiency component here, and there's 
a perception, at least coming to me, someone who's new to the 
Committee, that NASA sees each of its programs as somewhat 
siloed, or maybe they are siloed, as competing for limited 
resources. So how do we change that sentiment, if you agree 
that it exists, to cultivate a more streamlined agency, and how 
can we help?
    Dr. Whitson. Well, I think one of the best ways we can do 
that is to expand on what we've done with commercial cargo and 
commercial crew, to try and take advantage of the innovative 
ideas out there, and have them developed in part by private 
agencies, giving them a platform and a place to go. In essence 
we pay for it, but much less than what it would cost us if we 
had done it ourselves. So I think we need to expand on those 
capabilities throughout--wherever we can, whether it's other 
technologies that we can develop on the moon for----
    Mr. Waltz. Do you sense that--or is government being a 
hindrance or help? And----
    Dr. Whitson. I think----
    Mr. Waltz [continuing]. I mean, what can we do from, you 
know, from our foxhole here?
    Dr. Whitson. Overall I think the government provides the 
leadership--NASA provides the leadership that is required. And 
even our international partners that we work with say, well, 
when's NASA going to have the definitive plan, so that we can 
get on board? Because they expect us to be the leader, and we 
need to serve that role as a leader. I think NASA is that role.
    Mr. Waltz. So having, or better communicating, the--those 
long-range objectives----
    Dr. Whitson. Yes.
    Mr. Waltz [continuing]. Right, that the private sector can 
then----
    Dr. Whitson. Yes.
    Mr. Waltz [continuing]. You know, make sensible investments 
into. Is that a fair statement?
    Dr. Whitson. And to integrate it with the plans in such a 
way as to optimize the outcome, and get----
    Mr. Waltz. Should the private sector be part of the 
planning process, or is it, you know, we plan, and then we'll 
let you know what it is?
    Dr. Whitson. I don't think it would hurt to have the 
private sector as a part of the planning process.
    Mr. Waltz. OK. Thank you. I yield my time.
    Chairwoman Johnson. Thank you very much. Just want to make 
a comment, there was a 2.3 decrease in the budget. Thank you. 
It really doesn't keep up with inflation. Ms. Stevens.
    Ms. Stevens. Thank you so much, and thank you to our 
distinguished panelists for joining us for this exciting 
hearing on ``America in Space: Future Visions, Current 
Issues''. I represent a district in southeastern Michigan, the 
suburbs of Detroit, known for its auto industry, known for what 
we do here on planet Earth, but our robust supply chain is also 
deeply connected to aerospace. Some of NASA's prime 
contractors, Lockheed Martin and Northrop Grumman, are 
responsible for many contracts, many awards, and, in fact, we 
have up to 80 companies in Michigan alone that have helped to 
build NASA's space exploration systems to the moon, Mars, and 
beyond. So deeply appreciate the big visions that we have 
discussed today, particularly as tied to another asset that we 
here in Michigan appreciate, and that is the technical 
workforce, and the best-in-class workforce. And I know that 
workforce development and skills training has come up today, 
along with commercialization, which we'll continue to push on.
    My first question is for you, Dr. Stofan. I read through 
your testimony, and appreciate everything that you packed in in 
what is the 5 minutes that you get to do your testimony. One 
line in particular jumped out to me, the discovery of 
extraterrestrial life, as you described, being a defining 
moment in the 21st century, just as the moon landing was. And, 
for those of you watching at home, I imagine, you know, we have 
visions of what extraterrestrial life is. Movies tend to define 
it, but I was wondering, from your scientific standpoint, could 
you kind of give us a description of what extraterrestrial life 
might be?
    Dr. Stofan. Yes. And I'm afraid for so many people 
listening at home they might be a little disappointed that I'm 
not talking about little green men, especially if we're looking 
at fossil evidence of life on Mars, if we're looking under the 
icy crust of Europa. We're probably talking about microbes, and 
I'd have to take you back to the fact that life here on Earth 
evolved in the oceans. It stayed in the oceans for over a 
billion years, and it really didn't get much past single cell, 
you know, pond scum, algae, for a really, really long time, so 
billions of years to get very complex life. So when we look 
outward in our solar system, we're really anticipating we're 
going to find sort of single cell, maybe very simple multi-
celled organisms.
    So you might say, well, then, why are we looking? That's so 
boring. It's not boring, because we have these fundamental 
questions. Do they--does it have cell structure that--like our 
life here on Earth does? Does it have RNA, does it have DNA, 
and how can we use that information to better understand life 
here on Earth?
    Ms. Stevens. And what would it mean for us--and I don't 
know if this was your testimony. I know it's come up today. But 
what would it mean for us to kind of look to put some sort of 
colony on Mars, or some long-term colonization on Mars?
    Dr. Stofan. You know, Mars is really hard, and Peggy can 
answer this better than I can, but, you know, Mars is hard. So 
when you think of those initial scientists, engineers, doctors 
going to Mars, think a little bit more like an Antarctic 
outpost. You know, Mars is tough. It's--there's a lot of 
radiation on the surface. It's a tough environment for humans, 
so it's going to start small, and grow over time.
    Dr. Whitson. And I think the--that it will be successful if 
we can take advantage of those resources we can use there. So--
because the more we have to send things to orbit, the more 
expensive it gets. And if we can, you know, make our own oxygen 
out of the CO<INF>2</INF> in their atmosphere--and think about 
what--that might have impacts here on Earth too. But if we can 
remove the oxygen from the--or the CO<INF>2</INF> from the 
Martian atmosphere and make oxygen, you know, that'll be a huge 
savings for us. And just that development of making 
structures--three dimensionally making structures out of 
materials that are found there, that will make a plan like that 
feasible. Otherwise, it just--it's not going to be feasible. It 
would just take too many launches and too much money to get us 
there.
    Ms. Stevens. We frequently say on this Committee that the 
Science Committee is the best kept secret in Congress, and I 
think saying make your own oxygen is another example of how 
that can be the case. With just the last remaining seconds, Mr. 
Rose, I wanted to get you in here. We really appreciated your 
comments on bilateral--multinational relationships, and I think 
that gets important as, you know, even if it's microbes, as we 
talk about, you know, longstanding presence on Mars, what--
could you speak to that?
    Mr. Rose. Ma'am, I would say international cooperation is 
key to everything we do in the future with regards to space, 
whether that's civil or national security.
    Ms. Stevens. Thank you. I'll yield back. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Cloud.
    Mr. Cloud. Thank you. I really appreciate you being here. I 
echo the comments, this is the fun committee to be on. This is 
Plan B for me. I initially wanted to be an astronaut, so I'm a 
little jealous. But, you know, for us the challenge is, you 
know, I want to kind of look at the national security 
competitive aspects to the situation, and I've been committee 
hopping, so I apologize if I'm repeating anything. But the 
challenge for us is it's our job to manage the checkbook, and 
so we're looking at national security issues. No doubt space is 
important from our commerce, from military assets, from having 
the high ground on information, how integrated it is with our 
phones, and, you know, just--GPS, and everything we do 
nowadays, but yet many defense experts are now looking at our 
national debt, they'll list that as the primary concern from a 
national security standpoint.
    And so, you know, we all buy into how awesome flagship 
missions are, not debating whether they should be, but then, at 
the same time, we've seen this explosion in the commercial 
space industry of innovation, and being able to do things--and 
it's grown pretty quickly, in the sense of being able to be 
innovators, and do things efficiently. And even your comments, 
in the sense that seems to be where the innovation is, or a lot 
of it, at this point, is in the commercial space industry, and 
being able to do things efficiently and effectively. You know, 
I think back to the failure is not an option days. I would've 
thought NASA is the primary innovator. So how do we kind of 
bring that together? I can't help but wonder, is there a 
culture issue, in a sense, that, you know, we have James Webb 
on one hand, we have explosion of innovation on the other hand. 
Is there something NASA can do to be innovative, to begin to do 
things more efficiently? Is that even a question, or do we kind 
of fall back on the flagship argument? Which is a valid one, 
not debating it, but----
    Dr. Stofan. You know, I think NASA is doing things 
innovatively, and I think when you look at the design of Webb, 
that's innovation in and of itself. And I would remind you, you 
know, we're trying to image within a few million years of the 
Big Bang. We are measuring the atmospheres of planets around 
other stars. We are doing amazing things, and that's what 60 
years of leadership at NASA has done. It has made us the world 
leaders in astrophysics, in Earth science, in planetary 
science, in heliophysics. It puts us in an amazing position, 
and with each of those innovations comes leadership and 
technology, and those technologies spin off in ways that 
benefit our economy.
    Dr. Whitson. And I'd just like to add on, just to clarify 
my previous statement about--commercial providers are doing 
things very innovatively. They can do them faster than NASA. 
NASA is also doing things in an innovative way, but we have a 
different focus, a different mission, that we're looking 
further into the future for. And so I think that is the 
distinction between the two. NASA is an incredible problem 
solver. We're taking the really, really big problems and trying 
to bite them--make them into bite-size pieces. And I think if 
we can hand some of those pieces off to commercial to do a 
faster turnaround, then together I think we can be the problem 
solvers that will get us to the lunar----
    Mr. Cloud. I've talked to some people in the private space 
industry that, of course, most of those came from NASA, and, 
you know, the brain trust has been dispersed in a sense, and 
asked them specifically, like, what's the difference? And just 
the ability to move quicker, I think, was part of it. And I, 
you know, I don't know if there's stuff that we could do to 
make that simpler on you either, and I'd be open to those kind 
of ideas.
    Mr. Rose, in a recent article advocating for the creation 
of U.S. Space Command, you acknowledged that both Russia and 
China are developing anti-satellite weapons to threaten the 
U.S. and our allies. Are we prepared to respond to an anti-
satellite attack?
    Mr. Rose. Sir, we are getting better. And I want to stress 
that this is something that the Obama Administration was 
working on, and I give a lot of credit to the Trump 
Administration for highlighting public attention on this. We 
need to do a couple of things. One, we need to enhance our 
diplomatic efforts to develop norms of behavior, but second we 
need to enhance the resiliency of our space architectures. One 
of the reasons Russia and China are developing these 
capabilities is because they believe we have an asymmetric 
vulnerability.
    So going to one of your first points, I think it's in 
critical--it's critical that we provide sufficient budgetary 
support for enhancing the resiliency of our national security 
space architectures.
    Mr. Cloud. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Norman.
    Mr. Norman. Thank you, Madam Johnson--Madam Chair. Thank 
each one of you for taking your time to come here. We value 
your service.
    Mr. Rose, I--you made a comment that we need more civil 
dialog, and I think norms of behavior. I'm from South Carolina. 
We have Shaw Air Force Base. I got a front row seat to China 
when I went in that small company in Chesterfield, South 
Carolina that had a center of the business walled off. I said, 
can I get in--can I go see it? No. Why not? Well, we had a 
particular person who had the magic patent that knew how to 
make this particular item. Lo and behold, a month later, he was 
gone. Lo and behold, when they did the research, he was hired 
by a China firm. They're now competing with--they paid him a 
lot of money. I had a front row seat when I went up in that F-
16, and the pilot, when you mentioned China, his face, not only 
did it get red, it got--and he wouldn't say anything. He just 
said, we've got a problem.
    And I guess what I would add is China is a dictatorship. 
They're not choir boys. They don't sell Girl Scout cookies on a 
daily basis. I guess I would ask, and this is kind of in line 
with Congressman Cloud, the only thing that I think they 
understand is leverage, and the only thing--you can have all 
the civil dialog that you want. I agree in being civil, but the 
bottom line, if they can make money, if they can steal your 
patents and your product, you see that as a problem?
    Mr. Rose. I certainly--sorry. I certainly see that as a 
problem, and my point is, sir, civil dialog alone is not going 
to solve the China problem. It needs to be part of a package 
that includes military capabilities. Very much with regards to 
the Soviets in the 1970s, you know? In the 1970s we had a very 
strong deterrence posture against the Soviets, but we also had 
opportunities for civil cooperation, the Apollo-Soyuz mission, 
for example.
    So my bottom line is we have to go into this with our eyes 
wide open about China. I believe that we are in a great power 
competition, but dialog needs to be part of our response, not 
just military capabilities. Military capabilities, but they're 
not enough.
    Mr. Norman. Which do they respond to more, dialog or 
military capability?
    Mr. Rose. I think we need to have solid military 
capabilities to ensure we have successful dialog.
    Mr. Norman. OK. Thank you. One thing--in my State of South 
Carolina, NASA has had a tremendous impact. All three major 
research universities receive funding from NASA. NASA is often 
thought to be confined to the States of Texas and Florida, and 
it's obvious to me that NASA research should be done across the 
Nation. Can any of you expand on the benefits and why we need 
that?
    Dr. Stofan. You know, the strong NASA research takes 
place--in astrophysics, heliophysics, Earth science, and 
planetary science takes place in universities all across this 
country, and that's critical because the best brains are 
located all across the country. And that investment, also, is 
encouraging the next generation to get involved in science, 
technology, engineering, and mathematics careers. So I believe 
the creative research, the innovative research that's taking 
place out at universities around the country, that NASA sends 
the far bulk of its research dollars out the door into the 
academic system, out to industry, is critically important for 
the health of the agency, but for the health of the country.
    Mr. Norman. Dr. Whitson?
    Dr. Whitson. I concur with Dr. Stofan. And, you know, we 
have 10 NASA centers throughout, you know, the United States, 
and the contractors that provide all our supplies for Space 
Station, you know, it's--almost every State has a contributor 
in some form or fashion. And so I think we are very 
distributed--NASA is very distributed throughout our Nation.
    Mr. Norman. Thank you. Mr. Rose?
    Mr. Rose. Nothing to add.
    Mr. Norman. Great. I yield back the balance of my time.
    Chairwoman Johnson. Thank you very much. That concludes our 
last questioner. Let me express my great appreciation to our 
witnesses, Dr. Stofan, Dr. Whitson, and Mr. Rose. We appreciate 
you being here, and for all you've done.
    And before we close the hearing, I want to announce that 
the record will remain open for 2 weeks for additional 
statements from the Members, or for any additional questions 
the Committee may ask the witnesses. Our witnesses are now 
excused, and the meeting is adjourned.
    [Whereupon, at 12:14 p.m., the committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Ellen Stofan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Peggy Whitson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Frank Rose

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

            Document submitted by Representative Brian Babin
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
